Office of Inspector General
U.S. Department of Transportation




Semiannual
Report to Congress




October 1, 2002–March 31, 2003
    semiannual
     report to
     congress
            October 1, 2002–March 31, 2003




Office of Inspector General ■   U.S. Department of Transportation
                  contents
From the Inspector General                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page v

Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 1

Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 8

Other Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 53

Charts and Tables

     Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 57

     Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 58

     Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 59

     Application of Investigative Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 59

     Application of Investigative Resources by Priority Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 60

     Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 60

     OIG Reports with Recommendations That Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 61

     OIG Reports with Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . .Page 61

     OIG Reports Recommending Changes for Safety, Economy, or Efficiency . . . . . . . . . . . . . . . . . . . . . . . . .Page 62

     Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 62

     OIG Published Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 63

     Application of Audit Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 66

     OIG Congressional Testimonies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 66

     Status of Unresolved Recommendations Over 6 Months Old . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 67

     OIG FY 2003 Budgetary Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 68

OIG Mission, Organization, and Contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 68

Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 71


                                                                                                                                                                     iii
    from the
inspector general

A    fter a period in which transportation security necessarily consumed much of our attention, we have
     turned our emphasis to the reauthorization of four major programs — FAA, Federal Highway,
Amtrak, and the Maritime Administration — an array of pressing safety issues, and the effects of an
extremely tight economic environment characterized by multibillion dollar declines in the Aviation and
Highway trust funds and competing transportation demands on the General Fund.
  Transportation-related accidents claim 43,000 lives and cost over $230 billion annually. While we have
made substantial progress in reducing highway fatalities and injuries, about 45 percent of deaths from
unintentional injur y involve transportation. In support of Secretar y Mineta’s determination to reduce
these deaths and injuries, we are conducting oversight of several safety programs, including:

■ NHTSA’s implementation of regulations requiring auto manufacturers to provide early information on
  vehicle defects;
■ FAA’s oversight of aviation third-party repair stations, and its continuing work to reduce runway
  incursions and operational errors;
■ FMCSA’s expansion of its compliance and enforcement program to include safety audits of new motor
  carrier operations; and
■ FRA’s efforts to increase safety at rail-highway grade crossings.


   We will be closely monitoring the reauthorization of FAA, Federal Highway, intercity rail, and
MARAD. As our testimonies have emphasized, growing competition for program funds alongside shrink-
ing projections for two major funding sources — the Aviation and Highway trust funds — underscore
the importance of achieving cost savings through enhanced management, oversight, and accountability.
   For example, Aviation Trust Fund revenues are expected to be about $10 billion less over the next 4
years than earlier projections. At the same time, five of FAA’s major acquisition projects have increased
by more than $3 billion. Concurrently, FAA’s budget has grown over 70 percent — from $8.2 billion in
FY 1996 to $14 billion in FY 2004.
   Since 1996, FAA has experienced substantial increases in workforce costs. The average base salar y for
fully certified controllers has risen to over $106,000 — a 47 percent increase over the 1998 average of
about $72,000 — compared with an average salar y increase for all other FAA employees of about 32 per-
cent. Continued growth of this magnitude is unsustainable given the fiscal situation. Containing FAA’s
cost growth will continue to be a key issue.
   FHWA also faces declining revenues in the Highway Trust Fund and continued demands for Federal
aid to state and local roadway and bridge projects. FHWA should take steps to get the most bang for the
buck out of its budget. If the efficiency with which the $500 billion invested by the Federal Government
and states over the last 6 years had been improved by only 1 percent, an additional $5 billion would be
available — enough to fund 4 of the 17 active major highway projects.




                                                                                                        v
        While FHWA has improved its stewardship of mega-projects, FHWA and the states can further
     enhance oversight by preparing reliable cost estimates; implementing more cost-effective engineering
     alternatives; managing project schedules to minimize costly delays; recovering overpayments from con-
     tractors and promptly resolving construction claims to control costs; and preparing finance plans to
     identify costs, schedule, funding, and risks. The Administration’s reauthorization proposal incorpo-
     rates many of these recommendations.
        Finally, to minimize losses, FHWA and the states must continue to strengthen their efforts to pre-
     vent and detect contract and grant fraud. Examples of recent cases include an East Coast defendant
     who will spend more than 4 years in jail for stealing $150,000 in FHWA Suburban Street funds, and
     public works inspectors who in exchange for bribes allowed contractors to submit fraudulent bills on
     about 30 federally funded highway contracts in one locality.
        The complex task of sorting out the future of intercity rail still lies ahead, against the backdrop of
     the troubled Amtrak system. Amtrak ridership and revenue have increased, with record passen-
     ger revenue and ridership levels in the last 2 years. Nonetheless, the system is nearly $5 billion
     in debt and needs more than $250 million a year in Federal funding to ser vice that debt. Cash oper-
     ating losses are estimated to reach between $700 million and $800 million over the next 5 years.
     Savings alone will not make the current model work. As we testified, we should decide what we want
     intercity passenger rail ser vice to be and how to produce, govern, and fund it.
        MARAD must better manage its Title XI Loan-Guarantee Program. From 1998 through 2002, 9
     MARAD loans have defaulted, totaling approximately $490 million in payouts. Our recent report iden-
     tified five reforms MARAD can make to better protect taxpayers’ interests, including requiring securi-
     ty in exchange for the assumption of added risk when it waives or modifies loan criteria, and estab-
     lishing an external loan-review process similar to that of the Export-Import Bank. The Department is
     making program changes in response to our recommendations.
        This semiannual report reflects our accomplishments from October 1, 2002 through March 31,
     2003. During that period, we delivered 5 congressional testimonies and issued 39 audit reports with
     more than $396 million in financial recommendations. Our investigative work resulted in more than
     $4.8 million in fines, civil judgments and recoveries, and 336 convictions.
        I would like to thank Secretar y Mineta, Deputy Secretar y Jackson, and Members of Congress and
     their staff for their continued support. We appreciate having the opportunity to work together in
     advancing the Department’s mission.




                                                                             Kenneth M. Mead
                                                                             April 2003



vi
work planned
   and in
  progress

T
          he Department is facing a number of significant challenges where
          Office of Inspector General (OIG) audits could lead to cost savings
          through improved management. Cost savings are especially important
in the current climate given constraints on the General Fund, the decline in
Aviation and Highway Trust Fund revenues, and increased program needs
reported across the Department.
   During the coming year, we plan to focus on four major cost drivers facing
the Department: (1) acquisitions; (2) infrastructure investments; (3) sound busi-
ness practices; and (4) intercity passenger rail. We will be targeting this work to
assist the Department and Congress as they consider the major Department of
Transportation (DOT) programs to be reauthorized this year:
the Aviation Investment and Reform Act for the 21st Century
(AIR–21), the Transportation Equity Act for the 21st
Century (TEA–21), and intercity passenger rail.
   We will also attend to important nonbudget issues, partic-
ularly DOT efforts to reduce transportation-related deaths,
injuries, and property damage, and enforce safety standards
and regulations. Key safety efforts that will receive enhanced
OIG oversight in the coming year include:

■ National Highway Traffic Safety Administration’s
  (NHTSA) follow-though on TREAD Act requirements to
  promulgate and implement regulations designed to
  improve reporting and follow-up on vehicle defects;                                 TRANSTAR, Houston TX, highway-
                                                                                                     monitoring facility.
■ Federal Motor Carrier Safety Administration’s (FMCSA) implementation of                  Photo by Jim Olive, Stockyard
  recommendations contained in our 1999 audit report on the Motor Carrier
  Safety Program and analysis of FMCSA’s enforcement program as required
  in the Motor Carrier Safety Improvement Act of 1999;
■ Federal Aviation Administration’s (FAA) actions to further reduce opera-
  tional errors and runway incursions. In FY 2002, at least one commercial
  aircraft was involved in a serious runway incursion or operational error every
  10 days on average.
■ FAA also needs to pay close attention to its oversight of aviation repair sta-


                                                                                                                       1
                                    tions. Since 1996, air carriers have significantly increased their use of out-
                                    sourced maintenance at these facilities.
                                       The specific projects we expect to complete or start in the reporting period
                                    April 1 through September 30, 2003 are highlighted below:

                                                                         Aviation
                                    ■ FAA ACQUISITIONS. Evaluate program costs and schedules for FAA’s major
                                      acquisitions and identify key issues affecting their implementation.
                                    ■ AVIATION REPAIR STATIONS. Determine if FAA: (1) ensures that repair stations have
                                      controls in place to provide adequate security for aircraft and repair facilities;
                                      (2) verifies that foreign civil-aviation authorities conducting inspections on
                                      FAA’s behalf ensure that aircraft are adequately safeguarded, repairs are com-
                                      pleted properly, and identified deficiencies are corrected; (3) monitors
                                      changes in air carriers’ maintenance expenses and repair station usage to iden-
                                      tify notable trends and effectively target FAA surveillance; and (4) ensures that
                                      maintenance at FAA-approved repair stations is performed by trained, quali-
                                      fied personnel and complies with approved maintenance procedures.
                                    ■ AIRPORT IMPROVEMENT PROGRAM AND PASSENGER FACILITY CHARGES. Determine the
                                      impact of new security requirements on the availability of funding from the
                                      Airport Improvement Program (AIP) and passenger facility charges (PFC);
                                      whether capacity-enhancing projects have remained on schedule; how AIP
                                      funds and PFCs have been used to enhance capacity; and how FAA moni-
                                      tors the AIP and PFC programs. In the past, AIP funding has been used
                                      primarily to build runways or make other infrastructure enhancements to
                                      improve the capacity and efficiency of the air transportation system. PFC
                                      collections have provided funding for terminal expansion, noise abatement,
                                      and other projects that enhance safety, security, and competition.
                                    ■ FAA UNION MOU. Evaluate FAA’s process for negotiating, approving, and
                                      implementing agreements made outside the national collective-bargaining
                                      agreement and identify any potential cost or operational impacts of local,
                                      regional, and national memorandums of understanding (MOU).
                                    ■ ATOP. Evaluate FAA’s management of the Advanced Technologies and
                                      Oceanic Procedures (ATOP) program with respect to cost, schedule, and
                                      performance. ATOP will modernize FAA facilities that are responsible for
                                      managing large segments of airspace over the Atlantic and Pacific Oceans,
                                      significantly increasing the efficiency and capacity of international air traffic.
                                    ■ OPERATIONAL EVOLUTION PLAN. Assess the cost and schedule data of key projects in
                                      FAA’s Operational Evolution Plan and identify factors affecting implemen-
                                      tation. The Operational Evolution Plan is a set of initiatives and milestones
                                      for expanding capacity in the air traffic control system.
                                    ■ TERMINAL MODERNIZATION. Determine if FAA’s terminal modernization strategy is


2   Semiannual Report to Congress
  reasonable and cost-effective. We will evaluate FAA’s cost and schedule pro-
  jections for completing modernization, review costs incurred to date for the
  Standard Terminal Automation Replacement System (STARS) and
  Common Automated Radar Terminal System, and analyze alter-
  natives to meet terminal modernization needs.
■ OPERATIONAL ERRORS AND RUNWAY INCURSIONS. Determine whether FAA
  is making progress in reducing operational errors and runway
  incursions and implemented recommendations contained in our
  previous reports.
■ EN ROUTE AUTOMATION MODERNIZATION. Review FAA’s plans and progress
  to implement a cost-effective acquisition strategy for the En
  Route Automation Modernization program. We will identify key
  risks that may affect the program schedule and determine whether
  FAA has an effective plan to manage these risks.

                 Financial and Information Technology
■ DELPHI. Determine whether Delphi, the Department’s replacement account-
  ing system, is adequately secured to ensure the integrity, confidentiality, and
  availability of accounting for funds and reporting financial statements.
■ DOT INFORMATION TECHNOLOGY. Evaluate DOT’s implementation of the
  Information Technology (IT) Capital Planning and Investment Control
  Process, as required by the Clinger-Cohen Act for cost-effective IT invest-
  ments. This process is designed to maximize the cost-effectiveness of IT
  acquisitions by providing guidance for planning, selecting, controlling, and
  evaluating major IT investments through a project’s life cycle. DOT has the
  third largest IT investment among civilian agencies—with a $2.7 billion
  request for FY 2004.
■ FTA COMPUTER SECURITY. Oversee an audit of the Federal Transit
  Administration’s (FTA) computer security and controls for its grants man-
  agement and payment systems.
■ SECURITY OF DOT’S INFORMATION SYSTEMS. Conduct an annual evaluation of
  the security program for DOT’s information systems, as required by
  the Federal Information Security Management Act.
■ NTSB. Determine whether the National Transportation Safety
  Board’s (NTSB): (1) procurements were reasonable and valid; (2)
  internal controls for procurements were adequate; and (3) procure-
  ments complied with Federal acquisition regulations.
■ FAA COST-ACCOUNTING SYSTEM. Provide the status of FAA’s efforts to
  establish a cost-accounting system and the results of specific areas as
  required by AIR–21.
■ ICEMAN. Determine the validity of Hotline complaints alleging that FAA


                                                                                    w or k p l a n n e d a n d i n p r o g re s s   3
                                                   improperly de-obligated funds on Integrated Computing Environment
                                                   Mainframe and Network (ICEMAN) contracts for data-processing services
                                                   for various DOT financial systems, including the Department Accounting and
                                                   Financial Information System, with authorization from contracting officials.
                                                 ■ DOT FINANCIAL STATEMENTS. Determine whether: (1) principal DOT FY 2003
                                                   financial statements and accompanying notes are presented fairly, in all mate-
                                                          rial respects, in conformity with U.S. generally accepted accounting
                                                          principles; (2) DOT has adequate internal controls over financial
                                                          reporting, including safeguarding assets; (3) DOT has complied with
                                                          laws and regulations that could have a direct and material effect on its
                                                          financial statements or other regulations the Office of Management
                                                          and Budget (OMB) requires Federal agencies to follow and the
                                                          Federal Financial Management Improvement Act; (4) financial infor-
                                                          mation in “Management Discussion and Analysis,” a supplemental
                                                          overview of the financial statements prepared by DOT’s chief financial
                                                          officer, is materially consistent with information in the principal DOT
                                                          financial statements; (5) internal controls ensured the existence and
                                                          completeness of reported data that supported performance measures;
                                                          and (6) supplementary and stewardship information is consistent with
                                                          management representations and the DOT financial statements.
                                                 ■ FAA, HIGHWAY TRUST FUND, AND NTSB FINANCIAL STATEMENTS. Oversee audits of FAA,
                                                   Highway Trust Fund, and NTSB FY 2003 financial statements.


                                                                       Surface and Maritime Programs
                                                 ■ RAIL-HIGHWAY GRADE CROSSINGS. Identify best practices and strategies used by
                                                   states that are contributing to reductions in the number of accidents, injuries,
                                                   and fatalities at rail-highway grade crossings. Evaluate DOT’s progress in
                                                   implementing the recommendations in our 1999 Rail-Highway Grade
                                                   Crossing Safety report. Determine the status of the Department’s safety pro-
                                                   posals for ensuring that it meets its 2004 goal for reducing the number of
                                                   grade-crossing accidents and fatalities.
                                                 ■ SEATTLE CENTRAL LINK LIGHT RAIL. In response to a request from the House
                                                   Appropriations Committee, we will review the estimated cost, funding,
                                                   schedule, and risks associated with the revised Seattle project and the safety
                                                   issue of running buses and trains in a downtown bus tunnel. We will also
                                                   assess whether a 14-mile segment can operate as a stand-alone system or if
                                                   additional segments are required.
                                                 ■ TREN URBANO. Determine the reliability of the current cost and schedule esti-
                                                   mates of the Tren Urbano Rail Transit Project in San Juan, Puerto Rico.
Photo courtesy of Seattle’s Central Link Light
                                                   Determine whether the Puerto Rico Highway and Transportation Authority’s
Rail Project                                       (HTA) financial plan is a realistic assessment of its ability to complete the proj-


4             Semiannual Report to Congress
  ect. Evaluate HTA’s efforts to resolve significant, outstand-
  ing construction quality problems and its plans and proce-
  dures to begin Tren Urbano’s revenue operations, including
  operational testing of the rail system.
■ SLOW ORDERS AND TRACK RECLASSIFICATION. Evaluate the Federal
  Railroad Administration’s (FRA) oversight of railroads’ use
  of slow orders and track reclassification and assess the impact
  on railroad track safety and service schedules. Railroads rou-
  tinely use slow orders to reduce train speed in response to
  certain track defects or adverse weather conditions. Railroads
  can also reclassify segments of track to change maximum
  allowable operating speeds and corresponding maintenance
  requirements.
■ SAFESTAT. Determine whether FMCSA’s Safety Status Measurement System
  (SafeStat) reliably identifies high-risk motor carriers. Specifically, determine
  whether: (1) data used by SafeStat are complete, consistent, accurate, and
  timely; (2) the SafeStat model is valid and the scores calculated are consis-
  tent with the model’s design; and (3) data
  quality-control systems are adequate to
  ensure the quality of information. SafeStat is
  an automated analysis system designed to
  measure the relative safety fitness of motor
  carriers based on performance data.
■ NAFTA. Verify that FMCSA has hired and
  trained staff, established inspection facilities,
  and developed safety processes and proce-
  dures for Mexican long-haul motor carriers,
  as required by the DOT FY 2002
  Appropriations Act. The act directed OIG to
  conduct comprehensive reviews of border
  operations to verify whether eight safety
  requirements are in place.
                                                                                                Photo courtesy of U.S. Department of
■ TREAD ACT. Evaluate NHTSA’s progress in implementing our 2002 audit                                             Homeland Security
  recommendations. We will examine: (1) the status of NHTSA’s implemen-
  tation of required rulemakings under the Transportation Recall
  Enhancement, Accountability, and Documentation (TREAD) Act; (2)
  processes established to ensure consistency in recommending and opening
  vehicle-defect investigations and ensuring investigation of the highest prior-
  ity cases; and (3) NHTSA’s progress toward ensuring its Office of Defects
  Investigations has put the appropriate information-system infrastructure and
  processes in place to promptly identify potential vehicle defects as intended
  by the TREAD Act.


                                                                                     w or k p l a n n e d a n d i n p r o g re s s   5
                                             ■ COST-RECOVERY. Evaluate FHWA’s efforts to ensure that major surface infra-
                                               structure projects are aggressively pursuing recovery of overpayments from
                                               design contractors for change orders caused by errors and omissions.
                                             ■ FMCSA. Assess FMCSA’s progress in implementing safety recommendations
                                               contained in our 1999 audit report on the Motor Carrier Safety Program
                                                              and analyze the operational results of FMCSA’s enforcement
                                                              program as required in the Motor Carrier Safety Improvement
                                                              Act of 1999.

                                                                       Competition and Economic Analysis
                                                             ■ AIRLINE INDUSTRY METRICS. Update OIG airline industry metrics
                                                               reflecting economic and operational characteristics of U.S.
                                                               airlines.
                                                             ■ AIR CARRIERS’ COMPENSATION PAYMENTS. Evaluate procedures of
                                                               the Office of the Secretary to implement the compensation
                                                               payment provisions of the Air Transportation Safety and
                                                               System Stabilization Act and the reasonableness of air carri-
                                                               ers’ claims for compensation payment.
                                                             ■ AMTRAK. Evaluate and assess Amtrak’s current financial
                                                               status and its 2003 operating and capital budget per-
                                                               formance. Review Amtrak’s 2004 grant request, its long-
                                                               term capital needs, and its revised cost-allocation
                                                               methodology.
                                                             ■ PENNSYLVANIA STATION REDEVELOPMENT. In a follow-up evaluation
                                                               to our 2000 audit, determine the Pennsylvania Station
                                                               Redevelopment Project’s latest cost, scope, funding, and
                                                               schedule. We will also assess whether Federal funds used
                                                               for the project have been spent as specified in the funding
                                                               legislation.
Photo by Focal Point

                                                                 Hazardous Material, Security,
                                                        Special Programs, and Department-Wide Issues
                                             ■ TRAVEL CHARGE CARDS. Determine whether: (1) employees used DOT travel
                                               charge cards only for official Government business; (2) internal controls
                                               were adequate to provide safeguards against unauthorized use; and (3) delin-
                                               quent travel credit card accounts were identified, monitored, and addressed.
                                             ■ DOT RULEMAKING. At the request of Rep. James L. Oberstar, Ranking Minority
                                               Member of the House Transportation and Infrastructure Committee, deter-
                                               mine how effective DOT is in managing its rulemaking process and meeting
                                               deadlines using its new system to track rulemaking.



6            Semiannual Report to Congress
■ PIPELINE SAFETY. As required by the Pipeline Safety Improvement
  Act of 2002, assess whether the Office of Pipeline Safety (OPS)
  has: (1) fulfilled pipeline safety mandates from legislation enact-
  ed in 1992 and 1996; (2) expanded research and development
  to improve technologies used in pipeline inspections; (3) pro-
  vided specialized training to pipeline inspectors on technologies
  used in, and reports generated from, pipeline inspections; (4)
  corrected shortcomings in pipeline data collection and analysis;
  and (5) established timetables to implement open NTSB
  pipeline safety recommendations. We will identify options for
  OPS to consider in expediting implementation of the recom-
  mendations. With the need to protect the nation’s pipeline
  infrastructure, we also plan to review OPS’s involvement in the
  security of the pipeline system.




                                                                                           Photo by Jim Olive, Stockyard




                                                                        w or k p l a n n e d a n d i n p r o g re s s   7
                                    a c t i v i t i e s


                                       Ohio Highway Construction Company’s Supervisor Sentenced
                                    October 1
                                               Edward Pannutti, a plant supervisor for Hardrives Paving &
                                            Construction, Inc., Youngstown, OH, was ordered by a U.S. District
                                            Court judge in Cleveland to pay $18,832 in restitution and put on pro-
                                            bation for 1 year. Pannutti mailed a number of invoices containing false
                                            information about the quality and quantity of asphalt provided for
                                            Mahoning County (OH) highway work. Between 1993 and 1999,
                                            Hardrives's owner, James Sabatine, together with foreman Christ
                                            Minerd and Pannutti, prepared false weight tickets, misrepresented the
                                            quantity of asphalt supplied, and utilized a false-front minority compa-
                                            ny. They also bribed several public officials so Hardrives could win
                                            asphalt paving contracts and continue the practice of submitting fraud-
                                    ulent invoices for asphalt that was never applied. OIG investigated the case with
                                    the FBI and the Department of Labor OIG.

                                             Review of Midway Airlines’ Compensation Payments
                                    October 3
                                       Midway Airlines ceased operations in August 2001 after filing for Federal
                                    bankruptcy protection but resumed operating in December 2001 after receiv-
                                    ing Federal compensation assistance under the Air Transportation Safety and
                                                                      System Stabilization Act. This compensation
                                                                      was subject to a bankruptcy court order that
                                                                      limited its expenditure to expenses related to
                                                                      resuming and sustaining flight operations.
                                                                      Our initial review of disbursements made
                                                                      through December 2001 found that
                                    $687,143 was used to pay expenses not directly related to resumption of oper-
                                    ations and, therefore, was not allowable. After discussions with OIG, Midway
                                    agreed to return these funds to its Federal compensation account.
                                       In a subsequent review, we found that Midway Airlines had disbursed its
                                    entire Federal compensation payments of $12,120,995 from December


8   Semiannual Report to Congress
2001 through August 2002 in accordance with the terms of the bankrupt-
cy court order.

          Former FAA Inspector Guilty of Conflict of Interest
October 18
   Former FAA Aviation Safety Inspector James Moore pleaded guilty in U.S.
District Court in Brooklyn, NY, to conflict-of-interest charges. Moore was
assigned to the New York Flight Standards Division Office in Garden City, NY,
and served as FAA’s principal operations inspector for Trans International
Express (TIE Aviation), an airline that was seeking to upgrade its FAA operat-
ing certification from charter to scheduled carrier. While still an FAA employ-
ee, Moore negotiated employment with TIE. He then resigned and became
the carrier’s president. The airline is no longer operating. On December 12,
Moore was fined $250 in U.S. District Court in Brooklyn. The case was inves-
tigated by OIG and the FBI.

     Aircraft-Parts Broker Jailed for 2 Years on Fraud Charges
October 18
   Richard Tuebner, owner of RMT & Co., an aircraft-parts brokerage firm in
Cincinnati, OH, was sentenced in U.S. District Court in Dallas, TX, to 2 years
in jail and ordered to pay $5,320 in restitution and fines. Tuebner pleaded guilty
to wire fraud for preparing false documents signifying the airworthiness of aircraft
parts of unknown origin, which he then sold. OIG investigated this case with the
assistance of FAA and the Defense Criminal Investigative Service (DCIS).

               Two Sentenced in Fraudulent CDL Scheme
October 28
   Felix Mamedov was sentenced in U.S. District Court in Chicago to pay
$50,000 in restitution and put on 4 months home detention for taking bribes
to help approximately 100 unqualified applicants obtain commercial driver
licenses (CDLs). For $2,000 apiece, Mamedov and his partner Lech Rzdzian
drove about 140 CDL applicants over a 6-month period from Chicago to
Florida to obtain their licenses.
   A middleman in the scheme, Peter Gregus of Miami, FL, was sentenced on
January 14, 2003, in U.S. District Court in Chicago, to 5 months in prison and
5 months of home confinement. In return for bribes, Gregus helped non-
English-speaking immigrants in Illinois, North Carolina, New York, Ohio, and
Wisconsin cheat on their written and driving tests. The scheme also included
Jose Carranza, an employee of 3S Trucking, Inc., a Florida truck-driving school
and state-certified third-party testing facility. Carranza received $400 for each
applicant he illegally passed on the practical portion of the test. During testing,

                                                                                       a c t i v i t i e s   9
                                     a c t i v i t i e s


                                     many applicants never got behind the wheel of a truck. Carranza pleaded guilty
                                     in July 2002 to accepting bribes. Many of the unqualified CDL holders were
                                     then employed by Watkins Truck Line in Illinois, another participant. This case
                                     is part of the ongoing Operation Safe Road investigation involving OIG, the
                                     FBI, IRS Criminal Investigation Division, Postal Inspection Service, and
                                     Illinois State Police.

                                          Former Security Guard Sentenced for Misusing Official ID
                                     October 29
                                        Koshin Abdullahi, a Somali national residing in Everett, MA, was fined
                                     $2,500 and placed on 6 years probation by a U.S. District Court judge in
                                     Concord, NH, after pleading guilty to misusing official identification. A former
                                     contract security guard at the Volpe National Transportation Systems Center in
                                     Cambridge, MA, of the Department’s Research and Special Programs
                                     Administration (RSPA), Abdullahi failed to surrender his DOT identification
                                     when he resigned in 1999. During a routine traffic stop in May 2002,
                                     Abdullahi displayed the ID and a constable’s badge to Portsmouth, NH, police
                                     and falsely indicated he was a DOT law enforcement officer.
                                        As a result of our investigation, the Volpe Center implemented measures to
                                     prevent similar incidents from happening, including periodic computer checks
                                     to limit the number of unauthorized IDs in circulation. Examples of unautho-
                                     rized IDs include expired cards or those which staffers fail to turn in when they
                                     leave employment. The new measures have enabled the center to collect 1,100
                                     unauthorized cards. The case was investigated by OIG with assistance from
                                     local police.

                                                Third-Party CDL Tester Sentenced in Fraud Case
                                     November 1
                                        James A. Schlosser of Fletcher, NC, was sentenced in U.S. District Court in
                                     Raleigh, NC, to 5 years probation and ordered to perform 150 hours of com-
                                     munity service for falsely certifying skills test results for commercial driver
                                     licenses. Schlosser, a third-party CDL tester in North Carolina, was the final


10   Semiannual Report to Congress
defendant in a case that resulted in the suspension of 67 CDLs. The other
two defendants, Lee Roy and Elmer Searcey, pleaded guilty in May 2000 to
using Schlosser’s testing certification number to administer unauthorized
CDL exams. Schlosser signed the exam sheets as though he had adminis-
tered the tests himself and knowing that the examinations did not meet
required Federal and state test standards. OIG conducted the investigation
jointly with the NC Division of Motor Vehicles and the FBI, with assistance
from FMCSA.

   Florida Man Jailed for Falsifying Pilot License Application
November 6
   Anthony John Marcinek, Largo, FL, who was on probation for drug offens-
es, was fined $3,000 and ordered to serve 8 months in jail by a U.S. District
Court judge in Tampa, FL, after pleading guilty to lying to the FAA about his
application for a pilot license. Marcinek falsely stated on his application form
that he had no criminal convictions, even though he had been convicted of a
felony drug offense.

           Former Uncertified Airline Mechanic Sentenced
November 8
   Michaele S. Durgini of Everett, WA, was sentenced to 10 months in prison
and 3 years of supervised release by a U.S. District Court judge in Seattle after
previously pleading guilty. He was charged with making false statements to the
FAA by presenting a false FAA airframe and powerplant mechanic certificate
when he applied for employment with Continental Airlines, and with inspect-
ing and repairing aircraft and signing maintenance logs even though he was not
certified to do so. Durgini’s fraud was uncovered when he was found using the
identification number of another Continental employee in aircraft maintenance
logs. Continental Airlines employed Durgini from 1992 to 2000. OIG was
assisted in this investigation by FAA.

       Construction Company Owners Plead Guilty to Cheating
                  Employees Out of Overtime Pay
November 12
   Paul and Bonnie Tendrup, owners of Tenson Construction, Inc., pleaded
guilty in U.S. District Court in Minneapolis, MN, to conspiracy charges for
cheating their employees out of at least $160,000 in overtime pay on Federal-
aid contracts. Minnesota-based Tenson Construction specializes in asphalt and
concrete highway construction and has Federal-aid highway contracts in Iowa,
Minnesota, Texas, and Wisconsin. An audit of seven Tenson contracts by the


                                                                                    a c t i v i t i e s   11
                                       OIG Comments on DOT’s Study of Orbitz

                                     S  ince the late 1990s, consumers have increasingly turned to the World
                                        Wide Web to purchase airline tickets from on-line travel services or
                                     directly from the airlines. Between 2000 and 2001, airline ticket sales over
                                     the Web increased 46 percent, and in 2002, about 15 percent of airline
                                     tickets were sold over the Web.

                                         In November 1999, four of the largest U.S. airlines announced their
                                     intent to jointly launch an on-line airline ticket-reservation service, which
                                     they named “Orbitz.” Consumer groups, Congress, Government agencies,
                                                                   and industry stakeholders voiced concerns
                                                                   about the possible antitrust and anticompeti-
                                                                   tive issues associated with this collaborative
                                                                   effort among competitors.

                                     CONCERNS ABOUT ORBITZ
                                       One primary concern was the most-favored clause (MFN) contained in
                                     the contracts Orbitz entered into with "charter associate" airlines. Charter
                                     associates are Orbitz owners and other airlines that entered into a con-
                                     tractual relationship with Orbitz related to booking-fee rebates and access
                                     to certain fares.

                                       The MFN clause entitled Orbitz to receive any fare made available on a
                                     charter associate airline’s Web site. It also required charter associate air-
                                     lines to provide Orbitz with any fares they made available to Orbitz’s on-
                                     line competitors, as long as Orbitz was able to match the terms offered by
                                     the competing agency. In other words, the MFN clause allows charter
                                     associate airlines to give the same fares it gives Orbitz to other distribution
                                     outlets. However, it restricts airlines from giving Orbitz’s competitors bet-
                                     ter fares without giving Orbitz a chance to match the terms. Opponents
                                     warned the MFN clause had resulted in Orbitz’s airline owners and charter
                                     associates engaging in monopolistic or anticompetitive behavior.

                                       Opponents also argued that the airlines would begin acting in an anti-
                                     competitive manner by not sharing their fares with distribution outlets
                                     other than Orbitz.

                                         A final issue involved Orbitz’s commitment to neutrally display all air-
                                     fares, regardless of whether or not an airline had an ownership interest or
                                     had signed a charter associate agreement. There were concerns that
                                     Orbitz’s airline owners would skew displays to give preferential display to
                                     their own fares.




12   Semiannual Report to Congress
OIG FINDINGS
    Because of these concerns, Congress instructed the       tigation at the Department of Justice, DOT did not
Department to study Orbitz and required OIG to evalu-        draw conclusions about this issue. The Department did
ate the Department’s findings. In our review issued          raise concerns, however, that Orbitz’s MFN clause could
December 13, 2002, we generally agreed with the              discourage selective discounting and other direct-mar-
Department’s finding that Orbitz’s operations have           keting initiatives through various distribution channels.
been consistent with its plans and that Orbitz has
                                                               Our review found the Orbitz airline owners were dis-
adhered to its business model.
                                                             tributing their lowest fares through a variety of distri-
  The Department concluded, and we concurred, that           bution channels. We also found that all three top on-
Orbitz has not deviated from its commitment to pro-          line travel agencies had access to at least some of the
vide an unbiased display of airfares and services,           airlines’ weekend Web fares, although the degree of
regardless of whether an airline is a charter associate or   access varied significantly.   Finally, we found that
has invested in Orbitz.                                      Orbitz’s airline owners and charter associates are

  Further, we found no substantive evidence that             increasingly providing their lowest fares to competitors.

Orbitz was engaged in monopolistic
or anticompetitive behavior to dom-
inate the on-line travel industry. For
Orbitz to exercise market power in
this way, it must first accumulate a
dominant market share, which it has
not done. Although Orbitz is a sig-
nificant player in the on-line travel
industry, its market share for air
sales lagged behind Expedia and
Travelocity.

  We also found that Orbitz out-
performed its competitors in finding
or matching lowest fares. In most
tests where Orbitz offered a signifi-
cantly better fare than its competi-
tors, it was not because of the MFN
clause. Nevertheless, Orbitz’s consumer ticketing fees
diminished most of the advantages that resulted when           We advised the Department of its ongoing respon-
Orbitz found or matched the lowest fare.                     sibility to monitor all airlines to ensure they are not

  A final concern involved whether Orbitz’s airline          engaging in unfair competition and recommended

owners and charter associates were acting in an anti-        that it continue to observe how the airlines use all dis-

competitive manner by refusing to provide their lowest       tribution outlets, including Orbitz, to distribute their

fares to Orbitz’s competitors. Because of an open inves-     services. ■




                                                                               a c t i v i t i e s                   13
                                                  a c t i v i t i e s


                                                  Minnesota Department of Transportation (MNDOT) determined the firm had
                                                  failed to pay its employees the required prevailing wages. A subsequent OIG
                                                  investigation found the Tendrups converted their employees’ overtime to reg-
                                                  ular work hours. A sentencing date has not been scheduled. The case was a
                                                  joint investigation of OIG, the FBI, and MNDOT.

                                                           Georgia Man Sentenced in NHTSA Crash-Car Scam
                                                  November 13
                                                 Anastosious Hatzopoulas of Carrollton, GA, was fined $6,339 and ordered
                                                                   to forfeit 32 vehicles by a State Superior Court judge of
                                                                   Carroll County, GA, after pleading guilty to 18 counts of
                                                                   altering vehicle titles and theft by deception so he could sell
                                                                   NHTSA crash cars to unsuspecting victims. The cars, used in
                                                                   NHTSA endurance and safety tests, are eventually sold at
                                                                   General Services Administration (GSA) auctions but cannot
                                                                   be titled for highway use. Hatzopoulas purchased them at
                                                                   auction, repaired and retitled them to conceal their condition
                                                                   and history, and then sold them over the World Wide Web.
                                                                   The Carrollton Police Department auctioned the vehicles in
                                                                   April 2003 and the victims will receive reimbursement in the
                                                                   near future. OIG conducted the investigation jointly with
Hatzopoulas purchased and repaired NHTSA crash cars, and sold them
to unsuspecting victims. Photo courtesy of NHTSA                   the Carrollton Police Department and GSA OIG.

                                                      FAA’s Oversight of National Airspace System Implementation
                                                                            Support Contract
                                                  November 15
                                                     Our audit found serious inadequacies in FAA’s oversight of the National
                                                  Airspace System Implementation Support Contract (NISC) because FAA did
                                                  not acquire services efficiently or control costs. NISC is a cost-reimbursable
                                                  contract that provides management, engineering, environmental, and automa-
                                                  tion support services on National Airspace System projects to FAA’s Airway
                                                  Facilities line of business and other organizations. We found that: (1) of $97


14                Semiannual Report to Congress
million in obligated funds, about $10 million was not needed to fund current
task orders; and (2) 22 percent of the contractor personnel reviewed did not
meet specifications for education and experience. These workers charged
approximately $4.5 million for about 98,000 hours of work.
   We recommended that FAA adhere to principles of contract oversight and
administration, make more effective use of audits by the Defense Contract
Audit Agency, and hold its managers accountable. The agency should also
implement performance-based service contracting to reduce costs, improve
performance, and increase accountability. FAA reprogrammed $5 million from
NISC to meet other agency priorities and stated that it redistributed funding
on remaining NISC task orders to make better use of the funds.

         IG Testifies Before Congress on Computer Security
November 19
   The Inspector General testified on the Department’s computer security chal-
lenges before the House Government Reform Subcommittee on Government
Efficiency, Financial Management, and Intergovernmental Relations. He told
the panel that notwithstanding recent progress, DOT still has a long way to go
to adequately secure its computer systems. In particular, DOT needs to:

■ appoint a Chief Information Officer with the authority to provide
  Department-wide leadership and enforce compliance with security guide-
  lines;
■ secure network entry points so its computer systems are less vulnerable;              DOT still has a long way to go to secure its
■ do sufficient analyses to determine the cause of computer security inci-                    computer systems, IG tells Congress.
  dents—whether from deliberate intrusion or innocent acts (the Department                                    Photo by Focal Point

  did not report three of 10 major Web defacements);
■ improve Web security and privacy protection;
■ perform background checks on contractors’ employees;
■ double the number of annual security-certification reviews to help identify
  vulnerabilities in all mission-critical systems and determine the costs to fix
  security weaknesses.

              Audit Recommends Stronger Oversight on
                 Springfield, VA, Interchange Project
November 22
   Our review of the Springfield, VA, Interchange Project found that project
cost estimates have grown by $435.5 million from $241 million in June 1994
to at least $676.5 million in June 2002 — an increase of 180 percent. We also
found that construction problems have increased costs and could delay project
completion, and funding to pay for cost increases has come at the expense of


                                                                                   a c t i v i t i e s                          15
                                                    a c t i v i t i e s


                                                                   other state-highway projects. We made six recommendations to
                                                                   improve planning, cost estimating, project management, and over-
                                                                   sight. FHWA agreed to implement all six recommendations. The
                                                                   Virginia Department of Transportation (VDOT) also agreed with
                                                                   the recommendations and committed to work with FHWA to
                                                                   implement them. VDOT prepared a financial plan for the project
                                                                   and FHWA approved it in January 2003. FHWA officials report-
                                                                   ed they are developing cost-estimating guidelines for projects cost-
                                                                   ing less than $1 billion, as recommended in our audit report.

Cost estimates for the Springfield, VA, Interchange Project have        Convicted Felon Pleads Guilty to Mail Fraud in
increased 180 percent in 8 years.
                                                                           New Charge Involving Aviation Parts
                                                    November 25
                                                       Bo Baker of Dallas, TX, pleaded guilty in U.S. District Court in Dallas to
                                                    mail fraud for organizing a bogus investment scheme involving nonexistent air-
                                                    craft parts in which she tricked people into investing over $1 million. She used
                                                    a significant portion of the illegal gains to finance her lifestyle while she was
                                                    awaiting sentencing from an earlier fraud conviction involving counterfeit air-
                                                    craft parts. That conviction resulted in a 56-month prison sentence and an
                                                    order to pay $198,268 in restitution in January 2002. At the time, Baker was
                                                    president and owner of 3D Industries in Dallas, a now-defunct FAA-certificat-
                                                    ed repair station. Baker could receive up to 5 additional years in jail on the mail-
                                                    fraud charge. She will be sentenced in April.

                                                       Trucking Company Fined $100,000 for Improper Shipment of
                                                                      Hazardous Military Decoys
                                                    November 25
                                                       Quick Transportation, Inc., a trucking company operating out of Michigan
                                                    City, IN, and Stockton, CA, was fined $100,000 and put on 36 months pro-
                                                    bation by a U.S. District Court judge in Sacramento for unlawfully transport-
                                                    ing compressed-nitrogen military decoy flares. The flares can become danger-
                                                    ous projectiles under extreme heat or pressure and are required by law to be

16                  Semiannual Report to Congress
shipped under constant surveillance. Although Quick received a bill of lad-
ing identifying the shipment as hazardous and specifying the need for sur-
veillance, the company created new paperwork that deliberately omitted the
reference to the hazardous nature of the shipment. Quick then trucked the
shipment to an intermediary firm, which delivered the container to Union
Pacific Railroad for transport to California. The flares were discovered when
the train derailed near Lodi, CA, in January 1998. The decoys did not
explode. OIG investigated the case jointly with the Naval Criminal
Investigative Service, the FBI, FRA, FMCSA, and RSPA.

Company Owner Fined for Shipping Improperly Labeled HazMat
November 26
   Raviv Aizen, owner of Maryland Core, Inc., a company in Baltimore, MD,
that recycles late-model automobile parts, was fined $3,000 by a U.S.
District Court judge in Baltimore for shipping automobile airbag modules
via ground freight without properly labeling them as hazardous material. The
modules contain cylinders of compressed gas capable of discharging with
explosive force. Aizen admitted he did not label the contents to avoid paying
higher shipping costs. From 1996 through June 1998, Aizen shipped
approximately 40 airbags each month and saved about $20 per shipment or
a total of about $24,000 by not properly declaring the shipments.

           Missouri Trucking Company Fined $25,000 for
                    Hours-of-Service Violations
December 5
   Affton Trucking Company, Inc., St. Louis, MO, which transports haz-
ardous materials in interstate commerce, agreed to pay a $25,000 fine after
pleading guilty in U.S. District Court in St. Louis for failure to keep proper
drivers’ records. Affton violated the hours-of-service limits by instructing its
drivers to falsify and alter their daily logs in order to hide the violations. This
was a joint investigation by OIG, the FBI, and FMCSA.                                  Afton instructed its drivers to falsify their logs.


         Former Plant Manager Sentenced for False Claims
                   About Aircraft Control Cable
December 5
   David M. Waddell of Conroe, TX, was sentenced in U.S. District Court
in Syracuse, NY, to 1 year probation, including 6 months of home confine-
ment, after he pleaded guilty to making false claims to the Department of
Defense and NASA about aircraft control cable. Waddell is a former plant
manager for Strandflex Company, Oriskany, NY, a division of Maryland


                                                                                      a c t i v i t i e s                             17
      Airline Industry Metrics

 D     uring the reporting period, we issued the
       second and third updates to our airline
 industry metrics — on October 7, 2002 and
 January 7, 2003, respectively. We originally devel-
 oped the metrics to help decision makers moni-
 tor the financial problems in the aviation indus-
 try as a result of the 9–11 terrorist attacks and
 the continuing weakness in industry demand
 that began in the first quarter of 2001 and has
 persisted since.
     The reports contain past, present, and future
 indicators of domestic air-service levels and the
 general state of the airline industry in four broad
 categories: (1) air-service demand and capacity;
 (2) air-system performance; (3) airline finances;
 and (4) air service at small airports. For example,
 the January report gives a snapshot of the phe-
 nomenal growth in regional jet flights, which
 increased 80 percent (from 88,474 to 159,662) for
 the 2 years ending December 2002. The metrics
 are based on data obtained from the Bureau of
 Transportation Statistics, FAA, and the Air
 Transport Association.
     While both reports provide charts and graphs
 in the same broad categories, the January report
 offers 30 indices (six more than the October
 report), including four new measures of air serv-
 ice at small airports. Examples of the charts are
 shown here. ■




18                  Semiannual Report to Congress
    Olympic and Equilon Pipeline Companies to Pay
        Estimated $112 Million to Settle Fatal
             1999 Pipeline-Rupture Case

In the largest criminal and civil settlement ever obtained in a pipeline rupture case,
 two companies agreed on December 11, 2002, to pay a combined $112 million in
fines and penalties. Olympic Pipeline Company and Equilon Pipeline Company,
which owned it at the time, were charged with the rupture of a petroleum pipeline
and subsequent explosion in Bellingham, WA, on June 10, 1999. Two 10-year-old
boys and an 18-year-old man were killed, and the waters, shorelines, and other nat-
ural resources of nearby Hannah and Whatcom Creeks were extensively damaged.
                                                          Olympic Pipeline pleaded
                                                       guilty to the charges and agreed
                                                       to pay $11 million to resolve crim-
                                                       inal charges and pending civil pro-
                                                       ceedings arising from the rupture.
                                                       Equilon pleaded no content to
                                                       the charges and agreed to pay a
                                                       $15 million criminal fine and $10
                                                       million civil penalty.
                                                          The charges, the first ever
                                                        brought under the Hazardous
Whatcom Creek’s shore on fire after the explosion.
                                                        Liquid Pipeline Safety Act, includ-
ed three criminal counts: (1) running the pipeline without training its staff how to prop-
erly operate it, as required by law; (2) causing 236,000 gallons of gasoline to be spilled
into nearby creeks by ignoring a warning that the
pipeline had ruptured; and (3) discharging gasoline into
navigable water without a permit.
    As part of the settlement, Olympic and Shell Pipeline
Company (Equilon’s current owner) agreed to inspect and
improve pipelines throughout the United States through
remedial programs estimated to cost more than $75 mil-
lion. The firms also each agreed to a 5-year corporate pro-
bation. The U.S. District Court in Seattle, WA, also accept-
ed guilty pleas from Frank Hopf, Jr., Woodlands, TX, a for-
mer Olympic manager; Ronald D. Brentson, Kent, WA,
former supervisor of product movement; and Kevin S.
                                                                                    Aftermath of the explosion at Whatcom Creek.
Dyvig, Buckley, WA, the operations controller responsible
for monitoring and controlling the movement of petroleum products through the
pipeline. They are scheduled to be sentenced in June. The case was investigated by OIG
and EPA, with assistance from the FBI and state and local officials. ■



                                                                                  a c t i v i t i e s                       19
                                     a c t i v i t i e s


                                     Specialty Wire. In 2001, a U.S. District Court judge in Syracuse ordered
                                     Strandflex to pay a criminal fine of $500,000 and $100,000 in restitution for
                                     manufacturing aircraft cable and falsely certifying that it met the U.S. military
                                     specifications for manufacture and testing. The company also agreed to pay
                                     $1 million to settle a civil complaint. OIGs from DoD, NASA, and DOT
                                     investigated the case.

                                       NTSB’s Financial Management Practices and Internal Controls
                                     December 11
                                        Our review of the National Transportation Safety Board’s (NTSB) finan-
                                     cial management practices and internal controls noted the board had made
                                     progress since April 2001. At that time, we testified that poor internal con-
                                     trols existed in NTSB’s Rapidraft Payment System and two employees embez-
                                     zled about $94,000 using the "Rapidraft" checks, which employees could use
                                     to support NTSB daily operations and accident investigations. Based on our
                                     recommendations, NTSB abolished Rapidrafts and began implementing use
                                     of Government credit cards. NTSB also implemented our recommendations
                                     to outsource travel-claim examinations and payments to the U.S. Treasury
                                     and to enter into an agreement with the Department of Interior to use a fully
                                     integrated financial system. Our current review found several "internal-con-
                                     trol" weaknesses, which NTSB has acted to correct.

                                              Progress on FAA’s Local Area Augmentation System
                                     December 16
                                        Our audit on FAA’s progress in developing and deploying the Local Area
                                     Augmentation System (LAAS) found that with respect to cost, schedule, and
                                     benefits, LAAS is not the same program as that envisioned 3 years ago.
                                     Important questions also remain about how to certify the safety of the system
                                     for pilots. LAAS is a precision approach-and-landing system that relies on the
                                     Global Positioning System to broadcast highly accurate information to air-
                                     craft on the final phases of flight. It is expected to enhance airport capacity



20   Semiannual Report to Congress
by increasing the number of aircraft
that can land under all weather con-
ditions and provide for more flexible
approaches to airports.
   We recommended that FAA: (1)
ensure the appropriate mix of skills
to manage LAAS and help deter-
mine the best approach for certifying
it as safe; (2) withhold funds for
locations beyond the six systems
planned until a process has been established for certifying LAAS as safe and at
least one system has been certified; (3) revise the cost, schedule, and benefits
and provide a clear understanding of where LAAS will be deployed and when
services will be available; and (4) initiate quarterly reporting to Congress. FAA
immediately took action in response to some of our concerns and promised to
address the others.

    Corporate Officer Fined $330,000 in Date-Rape Drug Case
December 17
   Michael P. Starks, chief executive officer of Chemlab in Little Rock, AR, was
fined over $330,000 and sentenced to 18 months in jail by a U.S. District
Court judge in Little Rock for conspiring to illegally sell and distribute kits for
making the "date-rape drug," gamma hydroxybutyrate (GHB). Starks and
unnamed co-conspirators assembled the kits and arranged to deliver them by
air in interstate commerce without proper labeling that the packages contained
hazardous materials. Stark also used Chemlab’s Web site to sell the kits in the
United States and several foreign countries. OIG conducted this investigation
jointly with the Food and Drug Administration, with assistance from FAA.

    Two Oklahoma Firms and Two Officials Fined $448,000 for
           Using Unapproved Parts in Aircraft Repairs
December 17
   Thunderbird Propellers, Inc. (TPI) and Thunderbird Accessories, Inc.
(TAI), both of Bethany, OK, were sentenced in U.S. District Court in
Sherman, TX, for using counterfeit and unapproved parts in repairs of aircraft
propellers and an aircraft turbo charger and then falsifying the certificates of
repairs. A twin-prop private aircraft fitted with one of the propellers crashed
in 1994, resulting in a fatality. An investigation by the National
Transportation Safety Board found factors associated with the crash included                An unapproved starter generator used to
fatigue failure of the propeller blade, improper propeller maintenance, and a                                       repair aircraft.




                                                                                      a c t i v i t i e s                        21
                                     a c t i v i t i e s


                                     material defect in the blade clamp screws. TPI was fined $350,000 and
                                     ordered to pay $23,670 in restitution for using counterfeit and unapproved
                                     parts on 18 propeller repairs. TAI was ordered to pay a $73,189 fine and
                                     $1,695 in restitution for using unapproved parts in the turbo charger repair.
                                     Both firms were also placed on 5 years probation. The companies have filed
                                     for bankruptcy.
                                          In a related case, TAI President Paul D. Finefrock and Chief Inspector and
                                     Repairman Marvin D. Thurman each agreed to pay $100,000 in March 2002
                                     to settle a civil suit for their role in falsifying aviation-repair certificates.
                                     Finefrock also agreed to lifetime forfeiture of his FAA certificate. The case of
                                     Johnnie L. Henry, a former TAI repairman, is scheduled for civil trial in April.
                                     Henry is being sued for making false claims against the Government by alleged-
                                     ly falsifying a work order and airworthiness tag on aircraft parts purchased dur-
                                     ing an undercover operation. The investigation was conducted jointly by OIG
                                     and the FBI, with assistance from FAA.

                                          Former Assistant Aviation Director and Wife Plead Guilty in
                                                       Miami Airport Corruption Case
                                      December 20
                                         Ricardo Mendez, former assistant aviation director for the Miami-Dade
                                      County Aviation Department, and his wife, Mirta Mendez, pleaded guilty
                                      to corruption in awarding contracts for work at Miami International Airport
                                      (MIA). Ricardo Mendez’s plea covered 34 counts of bribery, money laun-
                                      dering, tax evasion, and false tax returns in connection with letting contracts
                                      to clean contaminated soil at the airport and service orders to provide com-
                                      puter simulations of MIA facilities. Mirta Mendez pleaded guilty to con-
                                      spiracy to commit bribery. An engineering contractor and a graphics con-
                                      tractor pleaded guilty last year to paying the Mendezes over $226,000 in
                                      bribes in 1997 and 1998 to win work at MIA. The Mendezes face possible
                                      fines totaling over $1 million and imprisonment. Sentencing is scheduled
                                      for late April. The investigation was conducted jointly by OIG, IRS, and the
                                      Miami-Dade Police Department.


22   Semiannual Report to Congress
    FAA’s Acquisition of the Integrated Terminal Weather System
December 23
   The Integrated Terminal Weather System (ITWS) provides a 20-minute
forecast of weather conditions in the terminal area and is intended to help air
traffic managers make safe, efficient air-traffic decisions during bad weather.
We found that ITWS production costs were three times higher than expected,
increasing from $360,000 to $1.1 million per system. In addition, FAA
planned to extend the deployment schedule through June 2008, nearly 5 years
later than initially scheduled, and to defer adding several planned system
enhancements, including a 60-minute weather forecast.
   We recommended that FAA: (1) revise the deployment strategy, as appro-
priate, to deploy ITWS to sites that can achieve the greatest potential benefits
as soon as possible; (2) integrate a 60-minute weather forecast product with
ITWS to sites that achieve the greatest potential benefits before FY 2006; and
(3) update the ITWS cost and schedule baseline to reflect the new deployment
strategy and plans to integrate a 60-minute weather forecast product. FAA
concurred with our recommendations.




                        2003
 Ten Contract Workers for Sikorsky Aircraft Arrested for
         Concealing Disqualifying Backgrounds
January 8
    Ten contract employees for Sikorsky Aircraft Corporation in
Stratford, CT, which manufactures helicopters for the U.S. Coast
Guard, were arrested for lying about their criminal history, identity,
or immigration status on their background applications. Because
Sikorsky is a Federal contractor with access to classified information,
its employees must complete background applications. The employ-
ees worked for one of four Sikorsky contractors that provide a vari-
ety of services, including maintenance. Each had an electronic
“key” card giving them access to the facility. Sikorsky manufactures
and supplies replacement parts for the Coast Guard’s H–60 Jayhawk
helicopter, used in search-and-rescue operations and offshore law
enforcement and drug interdiction. This ongoing investigation is
being conducted by OIG and the Defense Criminal Investigative
Service, with assistance from the Social Security Administration                           Coast Guard H–60 Jayhawk helicopter.
OIG and the Immigration and Naturalization Service (INS).                                  Photo courtesy of the U.S. Coast Guard



                                                                                   a c t i v i t i e s                       23
                                                   a c t i v i t i e s


                                                                  Dallas Man Fined and Jailed for Using Fake
                                                                         Aircraft Mechanic Certificate
                                                   January 8
                                                             Emmett McGee of Dallas, TX, was ordered by a U.S. District Court
                                                          judge in Dallas to pay $15,000 in restitution for making false statements
                                                          regarding his fraudulent use of an FAA airman certificate. By passing
                                                          himself off as an airframe-and-powerplant (A&P) certificate holder,
                                                          McGee tricked Air Transport International into hiring him as a mechan-
                                                          ic for their DC-8 aircraft. He subsequently made entries in DC-8 log-
                                                          books for the aircraft repairs he performed, thereby creating fraudulent
                                                          logs since he was not a certified A&P mechanic. McGee will be jailed
                                                          for 4 months and serve another 4 months in a halfway house. OIG
                                                          investigated this case jointly with the FBI.
McGee made repairs to DC–8 aircraft he was
not qualified to do.
                                                           Shutdown of TASC’s Transportation Computer Center
                                                   January 9
                                                      Our audit of a Hotline complaint found the Department’s Transportation
                                                   Administrative Service Center (TASC) spent about $1.4 million to purchase
                                                   computer hardware and software licenses after all DOT customers quit using
                                                   its Transportation Computer Center (TCC). Instead of returning the leased
                                                   computers to the vendor, TASC unilaterally decided to buy the equipment in
                                                   anticipation of new business that never materialized. This decision resulted in a
                                                   waste of $1.4 million in DOT funds. TASC then inappropriately billed that
                                                   amount to customers as part of TCC closeout costs.
                                                      Based on our findings, TASC was ordered to dispose of the TCC comput-
                                                   ers, which it did by donating them to the FBI. In response to our audit rec-
                                                   ommendations, the Secretary abolished TASC as a separate entity because the
                                                   reported incident illustrated broader structural problems. DOT is conducting
                                                   a thorough review of all ongoing TASC business, assessing internal administra-
                                                   tive requirements, and making reforms that will require using more business-
                                                   like principles, establishing a rigorous cost-accounting system, and obtaining
                                                   annual independent financial audits.

24                 Semiannual Report to Congress
                HazMat Trucking Dispatcher Sentenced for
                  Lying About a Fatality Investigation
January 9
    Elik Burshstein, a dispatcher and maintenance worker for Petroleum
Asset Management Corporation (PAMC) of West Islip, NY, was sen-
tenced in U.S. District Court in Brooklyn, NY, for making false state-
ments concerning the inspection status of a hazardous-material tanker
truck involved in a fatality. Burshstein was fined $3,000 and placed on 3
years probation, including 6 months of home confinement. In
September 2000, the PAMC truck was involved in a collision in Central
Islip, Long Island, NY, in which a 62-year-old woman was killed. During
the ensuing investigation, the company presented three forged inspection
certificates for the tanker to FMCSA. Burshstein falsely told OIG agents
that in 1999 he had sent the truck to an inspection company.


    Pilot Sentenced for Fraudulent Airman Medical Certificates
January 10
  Oley D. Gerhardt of Fort Lauderdale, FL, was sentenced in U.S. District
Court in Fort Lauderdale for falsifying personal information and a Social
Security number on his FAA airman medical certificates. He was sentenced to 6
months in jail and fined $1,000. Gerhardt was arrested in September 2001 at
the Fort Lauderdale-Hollywood International Airport following a passenger’s
complaint that he overheard Gerhardt and another passenger making suspicious
comments regarding the September 11 tragedy. Following his arrest, agents dis-
covered that Gerhardt had a fraudulent pilot license and medical certificates.

        Trucker Who Caused Two Deaths Jailed for Falsifying
                     Hours-of-Service Logs
January 11
   Ivan W. Jones of Montevallo, AL, was sentenced to up to 23 months in jail,
depending on his behavior, and 200 hours of community service after being
found guilty of involuntary manslaughter in a truck accident by the Lehigh
County Court of Common Pleas in Allentown, PA. Jones had been driving
more than 14 hours at the time of the accident — far in excess of the legal limit
— but falsified his hours-of-service logs to reflect otherwise. The case involved
a September 1999 four-truck crash in which Jones, who was driving for
Continental Express Inc., of Oklahoma, slammed into the back of a dump
truck. The impact caused the dump truck to jump a concrete barrier into
oncoming traffic where it collided with a tractor-trailer, killing both drivers.
OIG and the Pennsylvania State Police investigated the case.


                                                                                    a c t i v i t i e s   25
                                                                 Top DOT Management Challenges


                                                       O    n January 21, 2003, we issued our report of the top management chal-
                                                            lenges facing the Department in FY 2004. Each challenge is briefly
                                                       described following.

                                                       1. Accomplishing DOT’s core missions of safety and mobility during
                                                       and after an effective transition of TSA and Coast Guard.

                                                         Renew focus on challenges central to DOT’s core missions of improving
                                                           transportation safety and mobility; establish an effective framework for
                                                           working with the transportation industry and the Department of
                                                           Homeland Security (DHS) on regulatory and programmatic security
                                                           issues; and continue progress in major DOT management initiatives,
                                                           including the development of effective financial and cost-accounting
                                                           systems that will enable the Department to better track and manage its
                                                           performance budget.

                                                           2. Reducing fatalities and injuries on our highways, emphasiz-
                                                           ing seat-belt law enforcement.

                                                              Increasing seat-belt use by strengthening and enforcing seat-belt
                                                           laws is the greatest challenge in reducing deaths and injuries on our
                                                           highways. Other safety priorities include improving the credibility and
                                                           integrity of the commercial driver license program and continuing to
Photo by Focal Point
                                                       implement the TREAD Act to proactively identify vehicle defects.

                                                       3. Reducing the risk of aviation accidents due to operational errors
                                                       and runway incursions.

                                                         FAA needs to further reduce the number of near collisions in the air
                                                       (operational errors) and on the ground (runway incursions) through train-
                                                       ing of air traffic controllers and pilots and use of technology to warn of
                                                       potential incidents.

                                                       4. Reversing FAA’s spiraling operating costs, improving aviation sys-
                                                       tem capacity, and reauthorizing AIR–21.

                                                         In 1996, Congress acted to make FAA a performance-based organization
                                                       by giving the agency two powerful tools—personnel reform and acquisition
                                                       reform. Congress also directed FAA to develop an effective cost-accounting
                                                       system.

                                                         More than 6 years later, FAA continues to experience acquisition schedule
                                                       slips and cost overruns (five major FAA acquisitions out of the 20 we moni-
                                                       tor experienced more than $3 billion in cost growth); has increased work-
                                                       force costs (FAA’s operating costs, which are primarily payroll, have
                                                       increased $3 billion, or 65 percent, since FY 1996); and despite spending $38



26                     Semiannual Report to Congress
million, FAA still does not have a cost-accounting system    7. Ensuring highway safety as the southern border
that covers the agency and provides managers with            is opened to Mexican motor carriers under NAFTA.
accurate cost data by location. FAA also needs to plan
                                                               Reevaluate overall resource requirements for inspec-
now to address future capacity issues before demand
                                                             tions at the U.S.-Mexico border as long-haul traffic
for travel rebounds and needs to achieve a balance in
                                                             materializes; monitor the safety performance of
the use of Airport Improvement Program grants and
                                                             Mexican motor carriers and drivers; and place commer-
passenger facility charges for airport security and capac-
                                                             cial vehicles out of service in any state when operating
ity projects.
                                                             without U.S. authority.
5. Clamping down on fraud, obtaining better
                                                             8. Strengthening computer security and invest-
value in highway and bridge investments, and
                                                             ment controls for DOT’s multibillion-dollar infor-
reauthorizing TEA–21.
                                                             mation-technology investment.
  Refocus FHWA oversight to ensure major projects are
                                                               DOT needs to strengthen computer security and
delivered approximately on-time and on-budget; pro-
                                                             information-technology investment controls on a
mote efforts to prevent, detect, and prosecute fraud in
                                                             Department-wide basis. This must be done with a view
Federal-aid highway programs with emphasis on known
                                                             toward cost-effective system acquisitions and reducing
problem areas such as the disadvantaged business
                                                             system vulnerabilities to cyberattacks. A chief informa-
enterprise program.
                                                             tion officer should be empowered to strengthen securi-
6. Determining the future of intercity passenger rail.       ty and capital planning Department-wide.

  Congress, the Administration, Amtrak, and state and        9. Continuing to improve transportation security.
local stakeholders need to decide upon a sustainable
                                                               To solidify progress made thus far, and until TSA
intercity passenger rail system, determine Amtrak’s role
                                                             transfers to DHS, DOT must continue to take the lead
and responsibilities within that system, and develop a
                                                             for the Government’s increased aviation security respon-
credible funding plan that invites Federal and state gov-
                                                             sibilities, including completing deployment of explo-
ernment participation.
                                                             sives-detection equipment to the remaining airports;
                                                             train and effectively manage airport security personnel;
                                                             implement rigorous cost controls for security spending;
                                                             and strengthen security in transit, rail, motor carrier,
                                                             and ships.

                                                             10. Meeting Coast Guard’s safety and security mis-
                                                             sions.

                                                               Find the correct balance between the newly elevated
                                                             security mission, the search-and-rescue mission, and
                                                             other traditional core missions; stabilize requirements
                                                             for the Deepwater System procurement; and develop a
                                                             realistic and affordable capital investment plan. ■




Photo by Ernest H. Roble



                                                                               a c t i v i t i e s                  27
                                                   a c t i v i t i e s


                                                          Report Released Regarding FAA’s Alleged Harassment of
                                                                        College Aviation Director
                                                   January 13
                                                                       House Majority Whip Roy Blunt released an OIG report
                                                                    concerning the alleged harassment of Joseph Brinell by offi-
                                                                    cials of FAA’s Kansas City Flight Standards District Office
                                                                    (FSDO). On December 9, 1999, Brinell, director of aviation
                                                   for the College of the Ozarks, perished along with five others when the plane
                                                   he was flying crashed. We found that between March and December 1999,
                                                   FSDO’s general aviation supervisor and a principal operations inspector took
                                                   three enforcement-related actions against Brinell, each of which could have
                                                   resulted in revocation of Brinell’s certification or pilot license. We found these
                                                   actions were unwarranted and FSDO’s justification lacked credibility. We rec-
                                                   ommended that FAA consider appropriate disciplinary and other administrative
                                                   action against the FSDO supervisor and operations inspector. In a previous
                                                   report, we identified a number of troubling irregularities with FAA’s internal
                                                   investigation, which prompted us to reinvestigate the matter.

                                                        Implementing the Aviation and Transportation Security Act
                                                   January 14
                                                                  At the request of Representative James L. Oberstar, Ranking
                                                               Minority Member of the House Transportation and Infrastructure
                                                               Committee, we reported on TSA’s progress in implementing two
                                                               provisions of the Aviation and Transportation Security Act.
                                                               Section 106 requires screening or inspecting all people, vehicles,
                                                               and other equipment, goods, and property before they enter a
                                                               secure area of the airport. Section 138 requires an employment
                                                               investigation, including a criminal-history check, of anyone who
                                                               has regularly escorted access to aircraft or a secure area of the air-
                                                               port. We found TSA is taking steps to implement the two sections,
Photo courtesy of the U.S. Department of Homeland Security     but recommended that the agency: (1) issue security requirements



28                 Semiannual Report to Congress
for airport vendors and tenants; (2) implement identified countermeasures to
strengthen airport-perimeter access security, including identifying costs and
sources of funding; and (3) issue a rule requiring background investigations
and criminal-history checks for all individuals who have regularly escorted
access to secure areas of the airport. TSA agreed that further corrective actions
were necessary.

              FAA’s Oversight of Workers’ Compensation
                     Claims in Air Traffic Services
January 17
   We evaluated FAA’s oversight of the workers’ compensation program with-
in Air Traffic Services to ensure cases are properly managed to prevent unnec-
essary costs. In FY 2002, Air Traffic Services incurred approximately $1.7 mil-
lion in operating costs to pay the salaries of employees who were temporarily
out of work on traumatic injury claims. That amount represents a 39 percent
increase over the past 4 years as compared to FAA’s total workers’ compensa-
tion program costs, which increased by less than 5 percent during the same
period.
   During the evaluation, we found indications of potential fraud and abuse
involving stress-related, traumatic-injury claims. However, we were unable to
determine whether these cases indicate systemic problems, since Air Traffic
Services does not require its facilities to track information on the claims. We
recommended that Air Traffic Services require facility managers to track data
associated with traumatic-injury claims in order to identify trends indicating
problem areas or potential fraud. In traumatic-injury cases, claimants who
experience a physical or stress-induced injury from a traumatic event can receive
up to 45 days off with pay to recuperate.

                        Amtrak’s Loan Condition 7
January 17
   We issued our final report to Secretary Mineta, FRA Administrator Allan
Rutter, and the House and Senate Appropriations Committees regarding
Amtrak’s compliance with condition 7 of its Railroad Rehabilitation and
Improvement Financing loan. The Department approved the loan in June
2002. Loan condition 7 requires Amtrak to identify the current value of its
physical assets, which the railroad could use to collateralize future short-term
funding, and clarify the extent to which they are encumbered. Amtrak was also
required to submit a plan to obtain an updated "arms-length" valuation of all
assets. We found Amtrak satisfied the requirements of condition 7. This report
contains propriety information and was not publicly released.                                             Photo by Focal Point




                                                                                    a c t i v i t i e s                   29
                                                   a c t i v i t i e s


                                                           OIG Investigation Prompts IndyGo Review, Uncovering
                                                               $2.9 Million in Overcharges on FTA Grants
                                                   January 17
                                                      As a result of an ongoing investigation, an FTA review revealed that the
                                                   Indianapolis Public Transportation System (IndyGo) charged $2,993,912 to
                                                   three FTA grants for expenses that were not allowed. Action is being taken to
                                                   recover the debt. The review was prompted by an OIG investigation into var-
                                                   ious contract irregularities at IndyGo. These irregularities included several no-
                                                   bid contracts given to insiders, awarding no-bid contracts to companies in
                                                   which IndyGo’s contracting employees held stock, and altering the identity of
                                                   some contracts in order to improperly bill them to Federal grants. OIG also
                                                   uncovered an instance where IndyGo steered $15,000 in subcontract work to
                                                   Greater Transportation Enterprise (GTE), Indianapolis, IN, to deter GTE
                                                   from taking legal action for not winning an IndyGo prime contract. The
                                                   uncovering of irregularities by OIG investigators eventually prompted FTA to
                                                   review IndyGo’s grant activities since 1999.

                                                                      Letter on Drug-Control Obligations
                                                   January 21
                                                      We issued a letter to the Office of National Drug Control regarding our
                                                   review of the U.S. Coast Guard’s “Report of Fiscal Year 2002 Drug Control
                                                   Obligations, Drug Control Methodology and Assertions.” We found the
                                                        report conformed to the policy circular of the Office of National Drug
                                                        Control and that management’s assertions were properly presented.

                                                                  Flight-School Owner Jailed for 44 Months for
                                                                              Wide-Ranging Fraud
                                                       January 23
                                                         Ahmed Abdulla Elashmouny, owner and president of S&A Aviation,
                                                       Inc., doing business as Delta Aviation Flight Academy in Farmingdale, NY,
One of Elashmouny’s planes.                            was sentenced in U.S. District Court, Central Islip, NY, to 44 months in jail


30                 Semiannual Report to Congress
and $26,056 in restitution. In July 2002, Elashmouny, an Egyptian national,
pleaded guilty to falsely representing himself on FAA forms as a flight instructor
certified to do instrument training and a U.S. citizen. He also pleaded guilty to
wire fraud on an insurance claim for a plane that crashed prior to being insured
and to access-device fraud for unauthorized use of credit card account numbers
to obtain aircraft equipment, aviation fuel, and computer products. The case
was investigated by OIG and the FBI, with assistance from FAA.


              Aircraft Parts Inspector Sentenced for False
                        Certifications on Repairs
January 24
   Carlos L. Marchini, former general manager and chief inspector for
Marchini Instruments, Inc., Miami, FL, was sentenced in U.S. District Court
in Miami to 10 months in prison and restitution of $12,852 for falsely certi-
fying the airworthiness of unapproved aircraft parts. These falsifications
allowed the parts to be used aboard military and civilian aircraft. Some of the
parts traced to the military had been installed on military aircraft and had to
be removed. The company’s FAA license to repair and certify aircraft instru-
ments was suspended in April 2001 when FAA learned Marchini was issuing                         An unapproved yaw damper
airworthiness certificates for parts not on FAA’s approved list. OIG and DCIS                   coupler seized by OIG special agents
                                                                                                in their investigation of Carlos
investigated the case.                                                                          Marchini.


Georgia Man Gets 7 Years and $187,000 Fine for Insurance Fraud
          Involving Illegal Airman Medical Certificate
January 27
  Rodney H. Williams of Thompson, GA, who fraudulently obtained an
FAA airman medical certificate to further an insurance fraud scheme, was
sentenced to 86 months in jail and $187,092 in fines and restitution by a
U.S. District Court judge in Norfolk, VA. Williams staged fictitious auto
accidents and then filed false insurance claims. He also claimed he was a com-
mercial pilot in order to receive additional compensation for alleged lost
wages when he filed the automobile insurance claims. Williams was convict-
ed in August 2002 on 12 counts of wire fraud, two counts of identity theft,
and one count of false use of a Social Security number. OIG worked with the
FBI on the investigation.

                DOT Consolidated Financial Statements
January 27
  For the third time in 4 years, the Department received a “clean” or unqual-


                                                                                     a c t i v i t i e s                        31
                                     a c t i v i t i e s


                                     ified audit opinion on its FY 2002 Consolidated Financial Statements, which
                                     included $84 billion in assets, $42 billion in liabilities, and $63 billion in oper-
                                     ating costs provided by American taxpayers. Despite the clean audit opinion,
                                     the report identifies significant financial issues that illustrate the need for the
                                     Department to fully implement automated systems and internal controls to
                                     avoid the extraordinary efforts required every year to prepare its financial state-
                                     ments. The report also identifies “material internal-control weaknesses” in
                                     FTA’s financial management, the Department’s information security, FAA’s
                                     oversight of cost-reimbursable contracts, and Transportation Security
                                     Administration (TSA) security screening contracts and financial management,
                                     as well as several other reportable conditions and instances of nonconformity
                                     with laws and regulations. The Department’s chief financial officer agreed with
                                     the report.
                                         KPMG LLP audited TSA’s and FAA’s financial statements under contract to
                                     us. The weaknesses highlighted, while serious, did not affect the clean audit
                                     opinion. KPMG made 18 recommendations to TSA and 14 to FAA for cor-
                                     rective actions. We agreed with the recommendations, and both agencies are
                                     working to take correction actions.

                                                Illegal Foreign National Sentenced for Falsifying
                                                          Airman Medical Applications
                                     January 28
                                        Hossein Salehi of Daytona Beach, FL, was sentenced in U.S. District Court
                                     in Orlando, FL, to 2 years probation and fined $400 for falsely claiming U.S.
                                     citizenship and failing to disclose a past DUI charge on three airman medical
                                     applications. Salehi was a student enrolled in a pilot-training program at
                                     Embry-Riddle Aeronautical University in Daytona Beach, FL. He was taken
                                     into INS custody and is being detained pending the results of a deportation
                                     proceeding to Iran.




32   Semiannual Report to Congress
      Three Jailed, Fined in Follow-Up to Largest Substandard
                 Construction Case in DOT History
January 31
   In a follow-up to the largest contract-fraud case in DOT history involving
substandard construction products, three officials of Caldwell Construction
Company, Greenville, MS, were ordered jailed and fined in U.S. District Court
in Baton Rouge, LA. The men ordered the substitution of inferior polymer-
coated steel pipe as drainage culverts on federally funded highway-construction
projects in Louisiana from 1992 through 1997. Sentences ranged from 51
months in prison and a $125,000 fine for the company’s former president to
$60,000 fines and 27–30 months in jail for two vice-presidents. A former
employee of Inland Steel Company, Chicago, was sentenced to 2 years proba-
tion for covering up the felony. In January 2001, a $30 million civil settlement
was reached with Ispat-Inland (successor company to Inland Steel) and Contech
Construction Products, Inc. (successor to Caldwell Culvert). OIG conducted
this investigation with the FBI and the U.S. Attorney’s Office in Baton Rouge.

                        CDL Revoked in Connection
                          with I–95 Bus Crash
February 3
   Darol W. Britt of Gray’s Creek, NC, was prohibited by a Georgia Superior
Court judge in Camden County from driving commercial motor vehicles for 10
years in the State of Georgia and ordered to pay a $1,000 fine and serve 10 years
on probation. Britt pleaded no contest to reckless driving and causing serious
injury when the charter bus he was driving was involved in an accident on I–95
in Georgia in April 2001. All 46 passengers were injured, including 12 school
children. FMCSA is coordinating with state authorities to revoke Britt’s nation-
                                                                                     Photo courtesy U.S. Dept. of Transportation
al commercial driver license for 10 years. The investigation was conducted joint-
ly by OIG and the Georgia State Patrol, with assistance from FMCSA.

            Operation Safe Road Nets Another Conviction
February 4
   Maria de los Santos, in the U.S. illegally from Mexico, pleaded guilty in U.S.
District Court in Chicago, IL, to identification fraud in a scheme uncovered
during the Operation Safe Road investigation of irregularities in the issuance of
commercial driver licenses in Illinois. De los Santos admitted to earning
$100,000 from 1999 through 2001 by helping illegal residents obtain false
identifications. While working at the now-defunct New Delhi Driving School,
she sold fraudulent Social Security cards and Mexican birth certificates to ille-
gal residents. The illegal residents were then able to obtain valid Illinois dri-


                                                                                    a c t i v i t i e s                        33
                                              Testimony on FAA Cost Controls


                                     A    s Congress began its deliberations to reauthorize the Federal Aviation
                                          Administration (FAA), the Inspector General testified recently regard-
                                                     ing the urgent need for the agency to control its costs and
                                                     function more like a business.

                                                       In hearings before the Senate Commerce, Science, and
                                                     Transportation Committee (February 11), the House
                                                     Transportation and Infrastructure Aviation Subcommittee
                                                     (February 12), and the Senate and House Transportation-
                                                     Treasury Appropriations Subcommittee (April 2 and 8,
                                                     respectively), the Inspector General reported that the
                                                     extent of FAA’s cost growth over the past 4 to 5 years is no
                                                     longer sustainable given the financial state of the airline
                                                     industry and multibillion-dollar declines in projected
                                                     Aviation Trust Fund receipts. The sharp decline in Trust
                                                     Fund revenues as a result of the slow economy and decline
                                                     in air travel will have significant implications for FAA’s
                                                     operating budget and could mean FAA has much less to
                                     fund its operations than in years past.

                                       FAA needs to focus its cost-control efforts on two areas: operations and
                                     acquisitions.

                                     OPERATIONS
                                       FAA’s operations budget has increased 65 percent from $4.6 billion in FY
                                     1996 to $7.6 billion in FY 2004, with payroll making up the largest portion.
                                     For FY 2004, approximately $5.6 billion, or 74 percent, of FAA’s operating
                                     costs are payroll costs. From 1998, when FAA began implementing new
                                     pay systems, its salaries have increased 41 percent, compared with a 30
                                     percent increase for the entire Federal workforce in Washington, DC.

                                       While linking pay and performance is a key tenet of personnel reform,
                                     only about 36 percent of all FAA employees receive pay increases based on
                                     performance due to the way various pay systems were negotiated and
                                     established.

                                       We also found between 1,000 and 1,500 sidebar agreements or memo-
                                     randums of understanding (MOU) with air traffic controllers outside the
                                     national collective-bargaining agreement. Many of these serve legitimate
                                     purposes, but some can add millions of dollars to personnel costs. We found
                                     that controls over MOU are inadequate. FAA management does not know




34   Semiannual Report to Congress
the exact number or nature of these agreements, there         ware for FAA facilities that manage high-altitude air traf-
are no established procedures for approving MOU, and          fic. This is a high-risk effort because of its size, complexi-
their impact on the budget has not been analyzed. It is       ty, and the fact that it involves over 1 million lines of
important for FAA to get a handle on this process because     software code.
many MOU involve issues pertaining to deploying new
                                                                FAA needs to strengthen contract oversight because it
equipment.
                                                              has not followed sound business practices when adminis-
   FAA is now working to identify those MOU which are         tering contracts. We have consistently found a lack of
problematic or costly and is corresponding with the           basic contract administration at every stage of FAA’s con-
National Air Traffic Controllers Association to reopen sev-   tract management, from contract award to contract
eral agreements. FAA also issued new procedures for           closeout.
MOU, which include limiting approval authority and
requiring that the human resources and budget divisions       COST ACCOUNTING AND LABOR DISTRIBUTION
review proposed MOU before management signs them.               Finally, to effectively control costs FAA also needs
                                                              accurate cost-accounting and labor-distribution sys-
ACQUISITIONS                                                  tems. In 1996, at the direction of Congress, FAA began
  In acquisitions, FAA needs to focus its efforts on three    developing its cost-accounting system. After nearly 7
areas: (1) controlling cost growth and schedule slips; (2)    years of development and over $38 million, FAA still
effectively managing and controlling costs with mod-          does not have an adequate cost-accounting system,
ernization projects that are just getting started; and (3)    and it expects to spend at least another $7 million to
strengthening contract oversight.                             deploy the system agency-wide. FAA also needs an
                                                                                        accurate labor-distribution sys-
  For example, five major acquisi-
                                                                                        tem to track the costs and pro-
tions that OIG tracks have cost
                                                                                        ductivity    of   its   workforce.
growth totaling more than $3 bil-
                                                                                        Questions about the extent
lion, the equivalent to an entire
                                                                                        that FAA’s overtime costs have
year’s budget for FAA’s moderniza-
                                                                                        been driven by staffing levels
tion account. There have been
                                                                                        cannot credibly be answered
schedule slips of 3 to 5 years in the
                                                                                        until it has an accurate labor-
same five projects.
                                                                                        distribution system.
  Problems with cost growth,
                                                                The Inspector General noted that FAA has made
schedule slips, and performance shortfalls have serious
                                                              progress with some acquisitions, such as Free Flight
consequences. They result in costly interim systems, a
                                                              Phase 1, FAA’s project to increase the capacity and effi-
reduction in units procured, postponed safety and effi-
                                                              ciency of the National Airspace System. At the direc-
ciency benefits, or crowding out other projects.
                                                              tion   of   the    FAA     Administrator      and    Deputy
  FAA cannot afford multibillion-dollar cost growth in its
                                                              Administrator, the agency has also begun to strength-
major acquisitions because there are billion-dollar proj-
                                                              en contract oversight. ■
ects just getting started that have potential for cost
growth.     For example, the En Route Automation
Modernization program, with an estimated cost of $2.1
billion, will replace aging computer hardware and soft-




                                                                                  a c t i v i t i e s                      35
                                     a c t i v i t i e s


                                     ver’s licenses by using the bogus documents. Operation Safe Road is an ongo-
                                     ing investigation involving OIG, the FBI, Postal Inspection Service, IRS, and
                                     the Illinois State Police.

                                          IG Testifies Regarding TSA’s Aviation Security Costs Before
                                                   Senate Commerce Aviation Subcommittee
                                     February 5
                                        In testimony before the Senate Commerce, Science, and Transportation
                                     Aviation Subcommittee, the Inspector General said TSA has made notewor-
                                     thy accomplishments in meeting its deadlines for federalizing the airport
                                     screener workforce and screening of all checked baggage. However, control-
                                     ling costs must be a priority for TSA, he testified. A key cost-control issue is
                                     effective contract oversight and managing human resources. TSA also needs
                                     to capitalize on economies of scale as it moves into the Department of
                                     Homeland Security. He testified that aviation security is not an end-state, not-
                                     ing that upwards of $3 billion is needed to integrate explosives-detection
                                     devices into baggage-handling systems at the largest airports, and there will be
                                     an ongoing need to deploy better and more effective equipment to meet
                                     threats. He urged caution before adding more air-travel fees or taxes, saying
                                     the General Fund is the most likely option for meeting TSA’s financial require-
                                     ments above security fees.

                                                   Baltimore Man and Woman Plead Guilty to
                                                     Production of Fake IDs, Racketeering
                                     February 5
                                        A Baltimore, MD, man and woman pleaded guilty in U.S. District Court in
                                     Baltimore to producing fake identification documents and mail-racketeering
                                     conspiracy. Mellarie L. Chisholm, an employee of the Maryland Motor Vehicle
                                     Administration (MVA), pleaded guilty on February 5, and Mohan Thapa, an
                                     interpreter for MVA, pleaded guilty on January 16. In exchange for bribes,
                                     Chisholm conspired with Thapa to sell and distribute fraudulent IDs to foreign
                                     nationals, and she received bribes from him to pass unqualified applicants on

36   Semiannual Report to Congress
tests for commercial driver licenses. Chisholm is scheduled to be sentenced on
April 24. Thapa’s sentencing date has not been set. This was a joint investiga-
tion of OIG, the FBI, and INS.

            Texan Jailed for Flying Without a Pilot License
February 11
   Cornie G. Lowe was ordered by a U.S District Court judge in Del Rio, TX,
to pay a $5,000 fine and spend 6 months in jail for piloting a plane without a
license and lying to the FAA. Lowe flew as pilot-in-command from Del Rio to
Ruidoso, NM, in May 2002, even though FAA revoked his pilot license in
December 2001. He also made false entries in airman logbooks as though he
were a certified flight instructor and signed biennial flight reviews of other
pilots when he was not authorized to do so. Lowe co-owns Fontera Aviation,
Inc., an aircraft fuel business at Del Rio International Airport in Texas. OIG
conducted the investigation with assistance from FAA.


        Defendants in Airport-Baggage Theft Case Plead Guilty
February 11 and 25
   Two ramp agents at Miami International Airport pleaded
guilty in U.S. District Court in Miami to charges of using
their airport security badges to steal items from the luggage
of British Airways passengers. Javier Munoz pleaded guilty
on February 11 and Onelio Vento on February 25. Both
were employed with Aircraft Services International, which
contracted with British Airways to load and unload passen-
gers’ luggage and belongings. They are two of six defen-
dants arrested by OIG, U.S. Customs Service, and Miami-
Dade Police Department on December 11, 2002.
   The other four defendants are Jorge A. Benitez, Jose                             Surveillance camera catches defendants in the
Leon, Pierre A. Bourdeau, and Maynor Hernandez, all of whom have pleaded            act of stealing from British Airways passengers’
                                                                                    luggage.
guilty. They are scheduled for sentencing on April 11. Vento is scheduled for
sentencing on April 30, and the others will be sentenced on April 11. OIG con-
ducted the investigation with the Miami-Dade Police Department, U.S.
Customs Service, and British Airways.


      Ohio Man Jailed for Using False Identity to Obtain a CDL
February 13
  Reubin R. Pete was sentenced to a year in jail and fined $500 by a U.S.
District Court judge in Cincinnati, OH, after pleading guilty on October 24,
2002, to making false statements to FMCSA concerning commercial driver


                                                                                  a c t i v i t i e s                           37
                                     a c t i v i t i e s


                                     licenses (CDLs). Pete, who has never held a valid CDL and is unqualified to
                                     drive a tractor-trailer, assumed the identity of a truck driver licensed in North
                                     Carolina. He then obtained a CDL in Ohio and began driving tractor-trail-
                                     ers in interstate commerce for Transcontinental Systems, Inc. In the process,
                                     he falsified documents related to CDLs, driver logs, drug testing, and
                                     employment applications.

                                            Former Trucking Employee Sentenced in HazMat Case
                                     February 19
                                        Randa Michelson, a former employee of Mid-America Express, Inc.,
                                     Chatsworth, GA, was sentenced in U. S. District Court in Minneapolis, MN,
                                     after earlier pleading guilty to participating in a conspiracy to transport unde-
                                     clared hazardous materials by truck. The chemicals, which should have been
                                     labeled as hazardous, included hydrogen peroxide and sodium hydroxide,
                                     which can cause skin burns and irritation to the respiratory tract. Michelson
                                     was sentenced to 3 years probation and 150 hours of community service. She
                                     was charged in Biloxi, MS, in 2001 with co-defendant Jack Weaver. She then
                                     moved to Minnesota and was allowed to enter her guilty plea there. Weaver
                                     was fined $1,000 in 2002. OIG conducted the investigation jointly with the
                                     FBI and the Enviromental Protection Agency (EPA).

                                                       Construction Company Owner Jailed
                                     February 20
                                        Brian Monczka, owner of First Choice Construction of Taylor, MI, was sen-
                                     tenced in U.S. District Court in Detroit, MI, to 5 months in jail and 400 hours
                                     of community service for making false statements regarding certified payroll
                                     records. The fraudulent payroll records allowed the company to increase its
                                     profits by about $150,000 by keeping money its employees had earned. First
                                     Choice, the prime contractor on an FAA-funded noise-abatement construction
                                     project, falsely represented its employees’ wages in documentation submitted
                                     to the Detroit Metropolitan Airport Authority. The investigation was conduct-
                                     ed jointly by OIG and the FBI.


38   Semiannual Report to Congress
         Trucker Pleads Guilty to Illegal Transport of HazMat
February 20
   Robert Finley, Sr., and RTF Industries, Inc., of Marshal, TX, pleaded guilty
in U.S District Court in Texarkana, TX, to disposal of cyanide solutions and
other hazardous waste without a permit. The hazardous waste was dumped at
the back of a plating company and on other land Finley owned in Tyler, TX.
Finley, owner of RTF Industries, manufactured pyrotechnic devices for the
U.S. military and other contractors and previously operated a metal-plating
facility. A facility cannot legally transport or dispose of hazardous waste unless
it has a permit. The investigation was conducted jointly by OIG, EPA, and
DCIS. Sentencing has not been scheduled.

        Flight-School Owner Guilty of Falsifying FAA and INS
               Documents to Conceal Criminal Record
February 21
   Eden Nacer Fetamia, president and owner of Link Aviation, Inc., a flight
school in Dallas, TX, was sentenced to 3 months in jail and fined $2,500 by a
U.S. District Court judge in Dallas. Fetamia had previously pleaded guilty to
making false statements to the FAA and INS to cover up his criminal record.
Fetamia lied on his FAA pilot and medical applications to conceal a prior con-
viction for bank fraud and a conviction for driving under the influence. As a
result, FAA revoked Fetamia’s air-transport pilot, commercial pilot, and flight
instructor certificates for 1 year. For concealing his criminal record, Fetamia
faces an INS deportation hearing, which has yet to be scheduled. The investi-
gation was conducted jointly by OIG, the FBI, and INS.

        Computer Security and Controls of U.S. Coast Guard’s
                 Aircraft Repair and Supply Center
February 25
   Our audit on computer security and controls at the U.S. Coast Guard’s
Aircraft Repair and Supply Center in Elizabeth City, NC, found the center
needs to: (1) establish a disaster-recovery and business-continuity plan; (2)
strengthen the security that governs access to its computer systems and the
physical complex; (3) strengthen its process for controlling changes to pro-
duction systems; and (4) enhance security administration, including back-
ground checks on key personnel. We identified five priority actions the Coast
Guard should take and provided their action plan and estimated completion
dates to the OIG, Department of Homeland Security. We performed a quali-
ty-assurance review of the audit, which was conducted for us by Price-
waterhouseCoopers LLP.


                                                                                     a c t i v i t i e s   39
                                                   a c t i v i t i e s


                                                                 Former FAA Inspector Sentenced for Theft
                                                   February 27
                                                      Harold A. Coghlan of Birmingham, AL, was sentenced in U.S. District
                                                   Court in Birmingham after pleading guilty to theft for receiving $1,897 in mil-
                                                   itary leave payments based on bogus military orders. He presented the fraudu-
                                                   lent orders to FAA in 1999 while employed as an aviation safety inspector. He
                                                   was ordered to pay $1,897 in restitution and fined $250. As a result of
                                                   Coghlan’s guilty plea in October 2002, five other felony counts were dismissed
                                                   against him for allegedly falsifying FAA forms to obtain ratings to fly certain
                                                   types of aircraft based on his military training. Now the president and CEO of
                                                   a charter cargo and small-passenger commuter service in Birmingham,
                                                   Coghlan resigned from the FAA in 1999. He was required to surrender his air
                                                   transport license and ratings he received on May 27, 1998. FAA is reviewing
                                                   the case for possible license revocation.

                                                               TSA’s Oversight of Security-Screener Contracts
                                                   February 28
                                                                     Our audit of TSA’s oversight of its security-screener con-
                                                                  tracts found that six of 13 large contractors charged TSA
                                                                  about $305 million more for passenger-screening services
                                                                  than they had charged air carriers for similar work. TSA
                                                                  deployed a Federal workforce to screen passengers at all air-
                                                                  ports but had not yet negotiated final contracts with 18 of 74
                                                                  contractors as of February 26, 2003, including 11 large con-
                                                                  tractors. TSA is withholding more than $90 million in pay-
                                                                  ments to contractors that had significantly increased their
                                                                  rates to TSA, pending completion of audits by the Defense
                                                                  Contract Audit Agency, and it reported contract management
                                                                  of the security screener program as a “material internal-con-
                                                                  trol weakness” in a departmental report to Congress and
Photo courtesy of U.S. Department of Homeland Security            OMB.



40                 Semiannual Report to Congress
              Review of TSA’s Screener-Security Program
February 28
   Our audit of TSA’s hiring and training of its aviation screeners found the
agency has made tremendous strides by hiring and training passenger and
checked-baggage screeners at the nation’s commercial airports. While TSA has
already moved to correct several weaknesses identified during the audit, there
are four areas where it still needs to take action. We recommended that TSA’s
next Federal Managers’ Financial Integrity Act report include the lack of con-
tract oversight for all major contracts as a “material internal-control weakness.”
TSA agreed to take corrective action and concurred with most of our findings
and recommendations. This report contains sensitive security information and
will not be publicly released.

         Review of Proposed Aviation-Security Technologies
February 28
   We issued the results of our review of proposed technologies to improve avi-
ation security, a study requested by Representative Martin Sabo. We reviewed
technologies for their potential to improve aviation security in the airport, air-
craft, checked baggage, screening checkpoint, and cargo and mail. We focused
on technologies in general, not specific products, and we recommended actions
to foster the development and deployment of aviation security technologies in
the near, intermediate, and long term. This report contains sensitive security
information and will not be publicly released.

             Review of Security at Aircraft Repair Stations
February 28
   We reviewed security controls at aircraft repair stations as part of our larger
audit of air carriers’ use of repair stations. We recommended that TSA work
with FAA, other Government organizations, and air carriers to improve securi-
ty at repair stations located at commercial and general airports and off airport
property. This report contains sensitive security information and will not be
publicly released.

               Letter to Rep. Young on DOT’s Air-Carrier
                       Citizenship-Review Process
March 4
  In response to a request from Representative Don Young, Chairman of the
House Transportation and Infrastructure Committee, we examined how the
Department determines an air carrier’s citizenship following a substantial                  The Wall Street Journal, March 6, 2003




                                                                                     a c t i v i t i e s                      41
                                     a c t i v i t i e s


                                     change in ownership, management, or operations. We found the Department’s
                                     informal process is not well-suited to complex, contentious, and controversial
                                     cases, such as its DHL Airways review, and suggested it allow greater trans-
                                     parency and public participation. We also suggested that the Department pub-
                                     licly articulate its criteria for determining air carriers’ citizenship and publicly
                                     assess how its criteria apply to DHL Airways.
                                         The Assistant Secretary of Transportation for Aviation and International
                                     Affairs requested public comments on our letter to Chairman Young, and all
                                     interested parties responded. Subsequently, the Department also issued an
                                     advance notice of proposed rulemaking and a request for comments on the
                                     Department’s rules and process for handling air-carrier citizenship reviews. In
                                     addition, Congress passed legislation directing the Department to use an
                                     administrative law judge to resolve the formal docket regarding the DHL
                                     Airways citizenship issue.

                                      Trinity Rail Group Fined Nearly $1 Million in HazMat Leak Case
                                     March 4
                                        Trinity Rail Group/Trinity Industries, Inc., Saginaw, TX, was ordered by a
                                     U.S. District Court judge in Albany, NY, to pay $924,062 in fines, restitution,
                                     and civil penalties for negligently releasing hazardous anhydrous ammonia
                                     from a rail car into the air in August 2000. The fumes sickened many people
                                     and stopped freight and passenger rail traffic on a major New York route for 3
                                     days. The company, which maintains and repairs railroad cars, pleaded guilty in
                                     November 2002 to charges of improperly installing a flange plate on top of a
                                     railroad tank car, causing a gasket to fail and the hazardous vapors to leak into
                                     a rail yard and nearby residential areas in Fort Edward, NY. The case was inves-
                                     tigated by EPA, New York State Department of Environmental Conservation,
                                     DOT OIG, and FRA.




42   Semiannual Report to Congress
          Georgia Tester Admits Falsifying CDL Test Results
March 6
   Grady D. Saffles, a commercial driver license (CDL) tester for America’s
Driving Force in Forest Park, GA, pleaded guilty in U.S. District Court in
Atlanta to falsifying CDL test results, resulting in the licensing of 26 CDL
applicants who did not take the skills portion of the test. America’s Driving
Force was not aware of the fraud. Saffles’s sentencing is scheduled for May 28.
This is part of an ongoing investigation into CDL fraud in Georgia that OIG
is conducting jointly with the Georgia Department of Motor Vehicle Safety,
with assistance from FMCSA.

             Delaware Minister Receives 4-Year Jail Term,
                   Ordered to Pay Back $150,000
March 7
   Rev. Lawrence Wright of Wilmington, DE, was ordered by a U.S. District
Court judge in Wilmington to spend 51 months in prison and pay $150,000
in restitution for money laundering, interstate transportation of stolen proper-
ty, false statements, and conspiracy to steal and misuse state transportation
funds. Wright took $150,000 in “Suburban Street” funds authorized for the
New Mount Olive Baptist Church, where he is the minister. He took about
$80,000 for personal use, kicked back about $60,000 to State Representative
Al O. Plant, from Wilmington, now deceased, who helped him win the grant,
and directed the remaining $10,000 to the church. The funds came from
Delaware’s Transportation Trust Fund, which receives about 40 percent of its
funding from FHWA and FTA. OIG and the FBI investigated the case.

           Pilot Jailed for Using Fake Commercial License
March 7
   Marvin C. Jacobs, an illegal foreign national from Aruba, was sentenced in
U. S. District Court in Fort Lauderdale, FL, to 1 year in jail after previously
pleading guilty to using an altered FAA commercial pilot license to gain
employment when he was licensed to fly only as a private pilot. Jacobs pre-
sented the fraudulent license to Reliance Aviation, which operates an air-taxi
service at the Fort Lauderdale-Hollywood International Airport. Based on the
bogus commercial license, the airline hired Jacobs, and he subsequently flew
numerous passengers from February 2000 through August 2001 while serving
as a first officer. Once Jacobs completes his sentence, he will be taken into INS
custody for deportation. OIG investigated the case with assistance from the
INS and FAA.




                                                                                    a c t i v i t i e s   43
                                                   a c t i v i t i e s


                                                       Air Traffic Controller with Criminal Past, Medical Condition
                                                                   Convicted of Making False Statements
                                                   March 12
                                                      Michael D. Douglas, formerly of Key West, FL, pleaded guilty in U.S.
                                                   District Court in Jacksonville, FL, to making false statements to FAA when he
                                                   falsified his application for a medical certificate, which he completed to advance
Control tower, Key West International Airport      his career as an air traffic controller. Douglas had worked as a contract air traf-
                                                   fic controller for Robinson Aviation, Inc., at Key West International Airport.
                                                   He was fired in July 2002 and his airman certificate revoked after an investiga-
                                                   tion revealed Douglas falsified information. He covered up his criminal history
                                                   and a medical condition and also used a false birth date and Social Security
                                                   number. A sentencing date has not yet been set. OIG conducted this investi-
                                                   gation with assistance from FAA.

                                                     Inspector General Testifies on DOT FY’04 Budget Issues Before
                                                      House Transportation-Treasury Appropriations Subcommittee
                                                   March 13
                                                      The Inspector General testified before the House Transportation-
                                                   Treasury Appropriations Subcommittee regarding cost drivers, management
                                                   challenges, and other appropriations issues for the DOT FY 2004 budget.
                                                   He said the Department will be strongly challenged to accomplish its mis-
                                                   sions in an “extremely challenging” budget environment of decreased rev-
                                                   enues from the Highway and Aviation Trust Funds, increased program
                                                   needs from all modes, and the challenge to maintain safety in all modes of
                                                   transportation. This is occurring against the backdrop of three major reau-
                                                   thorizations — the Aviation Investment and Reform Act for the 21st
                                                   Century (AIR–21), the Transportation Equity Act for the 21st Century
                                                   (TEA–21), and Amtrak.




44                 Semiannual Report to Congress
               DC Paving Contractor Fined $900,000 for
                    Bilking Federal-Aid Contracts
March 14
   Paving contractor Fort Myers Construction Corporation of Washington,
DC, agreed to pay $900,000 in fines, restitution, and civil damages after plead-
ing guilty in U.S. District Court in Washington, to conspiracy to bribe inspec-
tors of the District of Columbia Department of Public Works. To date, this
continuing OIG and FBI investigation, dubbed “Operation Hotmix,” has
found three paving companies, two of their owners, and nine Public Works
inspectors guilty of paying or receiving bribes in exchange for allowing con-
tractors to bill the District for work that was never done and approving inflat-
ed job tickets for asphalt that was never provided. The scheme affected about
30 federally funded contracts. Together, the three firms had been awarded
more than $32 million in Federal aid funded by FHWA.
   One of the other companies, C&F Construction Company, Landover, MD,
and its president, Florentino Gregorio, were ordered in February 2002 to pay
$41,000 in restitution and the company was placed on 1 year of probation after
earlier pleading guilty to bribery. Another defendant, Granja Contracting,
Arlington, VA, pleaded guilty in November 2002 and was sentenced to
$40,000 and 36 months probation.

                      Federal Air Marshal Program
March 14
   We issued our audit of TSA’s policies, procedures, and controls for operat-
ing an effective and efficient Federal Air Marshal (FAM) program, a review per-
formed at the request of Rep. Peter DeFazio. We evaluated the selection and
hiring process, training program, and scheduling of FAMs to ensure they are
properly trained and fully qualified to respond to incidents aboard aircraft, and
we evaluated management’s control over the program. We found TSA had
made commendable progress in expanding the program and is taking steps to
strengthen it. Nevertheless, we identified four areas needing immediate atten-
tion and made recommendations to TSA. TSA concurred with most of our
findings and recommendations and agreed to take corrective action. This
report contains sensitive security information, and TSA will determine if any
portions are publicly released.

   Four Sentenced in Ring to Profit from Scrapped Aircraft Parts
March 17
   RTS Services, Inc., an aircraft parts broker, and Roger Sickler, a corporate
officer, were sentenced in U.S. District Court in Fort Worth, TX, for their role


                                                                                    a c t i v i t i e s   45
                                                             Household-Goods Moving Fraud

                                                  A    nationwide increase in household-goods moving fraud over the past sev-
                                                       eral years was dramatically illustrated March 6 when 16 moving compa-
                                                     nies and 74 individuals affiliated with the firms were indicted on Federal
                                                     charges in Miami, FL. The defendants allegedly enticed victims by provid-
                                                     ing them with intentionally low estimates to move their possessions and
                                                     then held the goods hostage until the customers paid exorbitant addi-
                                                     tional fees.
                                                        As of March 31, 57 individuals had been arrested in the Miami case,
                                                     which is the latest in an increasing number of household-good fraud cases
                                                     being investigated by Federal and state agencies, including OIG.
                                                        In an earlier investigation involving the same type of fraud, three own-
                                                     ers of five unlicensed moving companies in the New York City area, were
                                                     sentenced on October 31, 2002, in New York City Criminal Court in Queens
                                                     after earlier pleading guilty. They were fined $119,500, barred from any
                                                     future involvement in the moving industry, and ordered to return all cus-
                                                     tomers’ property in their possession and forfeit assets to pay restitution to
                                                     the victims. In another case in New York City, three defendants were
                                                     indicted in U.S. District Court in Brooklyn on January 21 for their involve-
                                                     ment in a scam involving four Brooklyn moving companies. The companies
                                                     were on trial in Federal court at press time.
                                                        The Federal Motor Carrier Safety Administration (FMCSA) attributes an
                                                     increase in complaints against interstate movers to the abolition of the
                                                     Interstate Commerce Commission by Congress in 1995. Congress encour-
                                                     aged consumers to use neutral arbitration or pursue legal action against
                                                     movers to protect their interests.     While FMCSA is primarily a safety
                                                     agency, it is charged with oversight of the interstate moving industry. It
                                                     does not have the authority to settle loss and damage claims or obtain
                                                     reimbursement for consumers seeking payment for specific charges.
                                                        Household-goods moving fraud was the subject of congressional hear-
                                                     ings in 1998 and 2001 and a 2001 report by the General Accounting Office.
Miami Herald, March7, 2003.                          With areas of increased activity in New York City, south Florida, and
                                                  California and complaints beginning to add up in other communities, Federal
                                                  agencies are stepping up their efforts to investigate moving companies
                                                  engaged in fraud. Since 1998, OIG in conjunction with the FBI, FMCSA, and
                                                  state and local law enforcement agencies has investigated six schemes across
                                                  the country involving egregious cases of fraud against innocent consumers of
                                                  household goods carriers. The cases have resulted in 16 guilty pleas by indi-
                                                  viduals who were ordered to make $3,476,501 in restitution to defrauded
                                                  consumers, serve a combined 13 years in jail, and pay fines totaling $126,500.


46                Semiannual Report to Congress
  In the most serious consumer complaints, the moving companies are
involved in some variation of a common scheme that often begins with
consumer searches for companies on the World Wide Web. Typically,
the firm intentionally gives a "low-ball" quote over the phone without
seeing the goods to be moved. These firms never put their quote in
writing. Legally, a household mover cannot increase a written quote by
more than 10 percent.
  After the goods have been loaded on the truck and before delivery,
the mover confronts the customer with substantially inflated costs.
Frequently, a mover will attempt to justify the cost increases, alleging
there were more goods than represented. Sometimes the mover generates an                      Types of Household-
inflated weight ticket (known as "weight bumping") or adds other bogus                        Goods Moving Fraud
"hidden" charges. One such example of hidden charges involved a moving
company that added $150 for every five steps they had to carry a customer’s
things vertically, even though they had already inflated their original cost esti-
                                                                                          I  n general, OIG investigates house-
                                                                                             hold-goods carriers alleged to have
                                                                                          engaged in an egregious and intention-
mate from $1,200 to $4,500.                                                               al pattern of defrauding consumers by:
  If the victim objects, company representatives often become verbally abu-                  ■ using a fraudulent bill of lading,
sive, hijack the property by refusing to deliver it, and even threaten to auction         which would include making, altering,
it if the inflated price is not paid, generally in cash. When the property is final-      copying, publishing, or negotiating a
ly delivered, it is often damaged or some of the shipment is missing, and the             fraudulent bill of lading;
firm refuses to reimburse the customer for their losses. Irreplaceable family                 ■ deliberately providing a "low-ball"
heirlooms and sentimental items are often never recovered.                                estimate to lure customers and then
  Often, a company that has defrauded a large number of victims and devel-                withholding or threatening to withhold
                                                                                          the customers’ goods unless they pay an
oped a bad reputation changes its name and continues to operate in the area
                                                                                          additional, exorbitant sum; demanding
without fear of legal repercussions.
                                                                                          significantly more than the quoted
  To date, investigations of OIG, the FBI, and other Federal law enforcement              price;
agencies have resulted in charges against 31 moving companies and 93 indi-
                                                                                             ■ failing to observe their rate sched-
viduals associated with those companies involved in fraud against more than
                                                                                          ules or tariffs as required by regulation;
2,000 consumers. ■
                                                                                              ■ knowingly assigning a fraudulent
                                                                                          weight to a shipment ("weight bump-
                           To File a Complaint                                            ing");
                                                                                              ■ obtaining money or property on
 Federal Motor Carrier Safety Administration
                                                                                          false or fraudulent pretenses;
 ■ Call 1-888-368-7238 toll-free
                                                                                              ■  interfering with commerce
 ■ File a complaint online at http://www.fmcsa.dot.gov/factfigs/moving.htm                through theft, extortion, or threats or
 ■ Information on consumer rights can be found at                                         violence;
   http://www.fmcsa.dot.gov/factsfigs/moving.htm                                             ■ making false statements or know-
 FBI: To file a complaint against the companies indicted in Florida                       ingly making or using false documents;

 ■ http://miami.fbi.gov/movescam.htm                                                          ■ violating Federal criminal law by
                                                                                          engaging in mail and wire fraud or
                                                                                          money laundering.



                                                                                       a c t i v i t i e s                      47
                                     a c t i v i t i e s


                                     in a scheme to sell scrapped aircraft parts to FAA and U.S. Coast Guard
                                     (USCG) as FAA-approved parts for commercial and military aircraft. FAA and
                                     USCG purchased a variety of parts for use as spare parts in their aircraft main-
                                     tenance inventory. Sickler was sentenced to 3 years in jail, and RTS Services
                                     was sentenced to 3 years probation, making it ineligible for government con-
                                     tract work for that period. Both the firm and Sickler were also ordered to pay
                                     $250,000 in restitution to Kollsman, Inc., an avionics company in Merrimack,
                                     NH, for kickbacks RTS paid to Kollsman employee Marshall Bryant in
                                     exchange for aircraft-part repair orders. Instead of working on these parts, RTS
                                     farmed the work out and then charged highly inflated prices for the repairs,
                                     which Bryant authorized as necessary. Sickler was found guilty in September
                                     2002 of money laundering by a jury in U.S. District Court in Fort Worth, and
                                     RTS Services was found guilty of money laundering, conspiracy, and mail fraud.
                                        Marshall Bryant and his wife, Helen, of Merrimack, NH, were sentenced in
                                     U.S. District Court in Concord, NH, on January 16 for conspiracy to com-
                                     mit mail and wire fraud and accepting kickbacks from RTS. The Bryants were
                                     sentenced to 6 months of home confinement for receiving the kickbacks for
                                     inflating repair contracts for aircraft parts, some with FAA and U.S. Coast
                                     Guard. They will reappear in Federal court in April 2003 for an amended sen-
                                     tence, which will demand restitution for their victims, including FAA and the
                                     Coast Guard.

                                         Investigation of FAA Whistleblower’s Allegations Detailed in
                                                    Letter to U.S. Office of Special Counsel
                                     March 18
                                        In response to a request from the Office of Special Counsel (OSC) and on
                                     behalf of the Department, we investigated allegations brought by Bogdan
                                     Dzakovic, a former member of the “Red Team,” FAA’s covert aviation-securi-
                                     ty-testing unit. Dzakovic alleged that officials in FAA’s division of Civil
                                     Aviation Security deliberately covered up Red Team findings. Our investigation
                                     did not substantiate the allegations. While we found a former Red Team man-
                                     ager instructed the team to prenotify FAA Federal security managers before


48   Semiannual Report to Congress
testing explosive-detection system machines, we concluded that it was done for
legitimate purposes, and Red Team records show a slightly higher test-failure
rate after prenotification was instituted.
   We did find merit to Dzakovic’s concerns regarding coordination between
Red Team management and those who follow up on Red Team findings. In par-
ticular, we found programmatic weaknesses involving the reporting of Red
Team findings and regarding corrective action. We also found that changes FAA
made as a result of Red Team testing generally did not have the desired effect of
creating sustained, improved performance by airport screening companies. We
recommended that the Transportation Security Administration, which is now
responsible for airport security, implement three procedures in its covert testing
program. TSA indicated its new covert testing program includes these elements.

                   FAA’s Oversight of Airport Revenue
March 20
   At a sample of five airport sponsors — those who own or operate airports —
we found approximately $40.9 million in potential revenue diversions that were
not detected by FAA’s primary oversight methods. The amount was not detect-
ed because independent auditors of the airport sponsors were not sufficiently
aware of relevant OMB guidance on auditing airport revenue, and airport spon-
sors were not adhering to FAA requirements for airport financial reporting.
   Since we completed our fieldwork, the American Institute of Certified
Public Accountants and FAA have taken steps to better inform independent
auditors about requirements for reviewing airport revenue. These actions
should improve FAA’s ability to detect and prevent airport revenue diversions.
To ensure resolution of the revenue diversions that did occur, we recommend-
ed that FAA: (1) seek recovery of the $40.9 million we identified; and (2)
determine if practices that may have led to diversions have been corrected, and
if not, recover any additional funds diverted since completion of our work.

                  Cattle Hauler Fined $12,000 for
                    Falsifying Driver Log Books
March 24
   Bingham Livestock Transportation, Inc., Tremonton, UT, and owner
and President Lorin A. Bingham were sentenced in U.S. District Court
in Salt Lake City for falsifying driver log books in a case that has result-
ed in eight other convictions since February 2002. The cattle-hauling
company was fined $12,000 and placed on probation for 24 months,
making it ineligible for government contracts. Lorin Bingham was fined
$3,000. The eight earlier convictions, all on hours-of-service violations,



                                                                                     a c t i v i t i e s   49
                                     a c t i v i t i e s


                                     included Bingham’s sons and company vice presidents and co-owners, Brad
                                     and Barton, and five drivers, two of whom were Bingham’s brothers. The com-
                                     pany has a history of hours-of-service violations that FMCSA has cited with
                                     warnings and administration fines, which Lorin Bingham has ignored. OIG and
                                     the FBI investigated the case, with assistance from FMCSA.

                                                        Pilot Found Guilty of Deceiving
                                                   Social Security Administration for Benefits
                                     March 24
                                        David F. Slaven, Auburn, CA, was found guilty by a U.S. District Court jury
                                     in Sacramento, CA, for failing to inform the Social Security Administration that
                                     he held a current FAA Airman Medical Certificate while he was receiving ben-
                                     efits for a chronic illness. The Social Security Administration paid Slavens more
                                     than $190,000 from 1988 to 2002 based on his claims that he was suffering
                                     from chronic fatigue syndrome, also known as Epstein Barr Syndrome, and
                                     could not work. Witnesses reported they saw Slaven repairing and flying his
                                     plane and making repairs to an apartment building during the benefit period.
                                     FAA has revoked Slaven’s pilot license and mechanic license that gave him
                                     authority to inspect aircraft. Sentencing has not been scheduled.

                                                   MARAD’s Title XI Loan-Guarantee Program
                                     March 27
                                        Our review of the Maritime Administration’s (MARAD) Title XI Loan-
                                     Guarantee Program, conducted in response to requests from Senator John
                                     McCain and Representative Frank Wolf, found MARAD needs to conduct
                                     more effective oversight of the loan-application process, borrowers, vessels and
                                     shipyards constructed under loan guarantees, and foreclosed assets. Our report
                                     noted that in recent years, the program has experienced an increase in loan
                                     defaults and in the number of firms with loan guarantees filing for bankruptcy
                                     protection. In the last 5 years, nine loans have defaulted, totaling approximate-
                                     ly $490 million, and six of these have occurred since December 2001.



50   Semiannual Report to Congress
   We also assessed the effect of the American Classic Voyages
(AMCV) bankruptcy filing on MARAD’s Title XI loan guar-
antees, noting the bankruptcy had a significant impact on the
program, although it did not threaten the program’s imme-
diate solvency. AMCV’s bankruptcy affected over one-quar-
ter of the value of MARAD’s Title XI loan-guarantee portfo-
lio — $1.3 billion out of $4.9 billion at the time of default.
   We recommended that MARAD: (1) analyze the risks pre-
sented when it modifies criteria used to approve loans and
impose provisions to mitigate those risks; (2) establish
processes for external, independent reviews of projects; (3)
improve oversight of its borrowers’ financial condition; (4)
establish a process to monitor the physical condition of assets
over the term of a loan guarantee; and (5) improve its return
on foreclosed assets through better tracking of vessels and
property constructed with loan guarantees. MARAD agreed
with our recommendations.
                                                                                              The Times-Picayune, April 1, 2003.

       DOT’s Energy Management and Conservation Program
March 28
   We evaluated whether DOT was taking advantage of opportunities to reduce
energy consumption and costs and whether reported energy data were reliable
and accurate. We found DOT could further reduce energy and costs by invest-
ing in previously identified energy-conservation projects. We also identified
inaccuracies in reported data. To improve its energy program, we recom-
mended that DOT: (1) prioritize energy-saving projects and fund those which
have a payback in the near term; (2) develop processes to collect accurate ener-
gy data using FY 2003 data; (3) identify documentation to be retained to sup-
port annual data reports; (4) complete energy evaluations of all buildings by
January 1, 2005; and (5) disclose in the next annual report that energy data are
not supported by adequate documentation. DOT concurred with our findings
and recommendations and agreed to take corrective action.

 Philadelphia Man Imprisoned, Fined on 13 Counts of CDL Fraud
March 28
   William Nicastro of Philadelphia, PA, was sentenced by a U.S. District Court
judge in Philadelphia to 1 year in prison, $1,800 in fines, and mandatory drug
and alcohol treatment after being found guilty on 13 counts of commercial driv-
er license (CDL) fraud. The charges included making false statements to DOT,
identity theft, and bank fraud. Nicastro is currently serving the remainder of a
3-year state sentence he received as a result of a joint Pennsylvania and DOT


                                                                                   a c t i v i t i e s                      51
                                                  a c t i v i t i e s

                                                  OIG investigation for forgery. While using the identity and CDL of one of his
                                                  victims, Nicastro kidnapped a prostitute in Philadelphia and raped her repeated-
                                                  ly while driving a commercial motor vehicle from Philadelphia to Baltimore.
                                                  After serving the 3-year forgery sentence and the 1-year Federal sentence,
                                                  Nicastro will begin serving a 25- to 50-year sentence for the kidnapping.

                                                   October 2002 Finance Plan for the Central Artery/Tunnel Project
                                                  March 31
                                                     As directed by Congress, we reviewed the October 2002 finance plan of the
                                                             Central Artery/Tunnel Project, Boston, MA, to determine if it com-
                                                             plied with FHWA guidelines. We found the plan: (1) fairly represents
                                                             the project’s costs of $14.625 billion and identifies funding sources
                                                             — $8.549 billion in Federal funds and $6.076 billion in state funds;
                                                             and (2) reflects our earlier recommendations for full disclosure,
                                                             including a $150 million increase for additional insurance costs. We
                                                             identified the following issues the plan needs to disclose: (1) unre-
                                                             solved legal issues regarding proceeds from sale of the project’s head-
                                                             quarters building; (2) the risk of a 6- to 9-month delay in three
                                                             remaining project segments; (3) potential cost growth from con-
                                                             struction claims and possible cost recovery from consultants; and (4)
                                                             risks associated with the financial health of major construction con-
Photo courtesy of the Central Artery Tunnel Project,         tractors. FHWA and project officials amended the plan, and we con-
www.Big Dig.com
                                                             curred with FHWA’s decision to approve it.




52                Semiannual Report to Congress
      Other
 accomplishments


T
         his section extends beyond the legal reporting requirements of the
         Inspector General Act to highlight other accomplishments and contri-
         butions by OIG staff. We cover the impact OIG has made as we carry
out our statutory responsibilities to review existing and proposed legislation and
regulations; respond to congressional and departmental requests for informa-
tion; and review policies for ways to provide economy, effectiveness, and effi-
ciency or detect and prevent fraud, waste, and abuse.

Improved NHTSA Controls. As a result of an ongoing OIG investigation, NHTSA
advised it would institute procedures to ensure that claims for travel expendi-
tures and leave requests by regional administrators would be approved at the
headquarters level and that an official-use warning banner would be displayed to
NHTSA employees using computers in regional offices. (October)

STARS Oversight. Based on concerns we raised about the Standard Terminal
Automation Replacement System (STARS), the modernization effort that will
replace controller displays at over 160 air traffic control facilities, FAA
Administrator Blakey took two significant actions to improve program manage-
ment. First, she increased management oversight and took responsibility for
determining when STARS should begin operating at Philadelphia International
Airport, an event which subsequently took place on November 17, 2002.
Second, due to our concerns about ineffective cost controls, FAA conducted an
assessment of the business practices and operations of the STARS program,
which resulted in more than 50 recommendations to improve program man-
agement. (October)

OIG in Nigeria. At the request of the Office of the Secretary of Transportation,
Assistant Inspector General for Investigations Charles Lee, Jr., and two OIG
staffers conducted a seminar on oversight and accountability with members of
Nigeria’s legislative National Assembly and ministry heads in Abuja, Nigeria,
October 6–11, 2002. The National Assembly wants to establish an oversight
function similar to that performed by Offices of Inspector General in the United
States. We discussed the role of OIG and issues related to establishing and oper-
ating such an office, including legal authority, mission, and powers; desired qual-


                                                                                      53
                                     ifications for the office head and staff; investigative and auditing standards; and
                                     reports of audit and investigative results. The Agency for International
                                     Development funded this project. (October)

                                     Evaluating Baggage-Screening Equipment. In a letter responding to a request
                                     from Representative James L. Oberstar, Ranking Minority Member of the
                                     House Transportation and Infrastructure Committee, and signed by former
                                     TSA Administrator Adm. James M. Loy and the Inspector General, TSA agreed
                                     to develop and implement by the end of 2002 a meaningful set of test protocols
                                     to measure the performance of explosives trace-detection and explosives-detec-
                                     tion systems in an operational airport. The protocols evaluate equipment, peo-
                                     ple, and procedures. (December)

                                     TSA Contract Management. One of TSA’s major contractors, NCS Pearson,
                                     Arlington, VA, recruited, assessed, and hired the nationwide airport-screener
                                     workforce and provided human-resource support for all TSA employees. From
                                     February to December 2002, the cost of this contract grew from $104 million
                                     to an estimated $729 million. Due to poor cost control, we suggested that
                                     TSA hire the Defense Contract Audit Agency to audit their major contracts,
                                     which it did in November to review costs submitted under the NCS Pearson
                                     contract. (November)

                                     Incumbent Screeners Hired. An OIG review of personnel files at two airports dis-
                                     closed that nine incumbent screeners met TSA requirements and should have
                                     been hired as Federal screeners. TSA subsequently offered screener positions to
                                     these nine. (December)

                                     Applications for Airport Security Badges. We identified ways to improve the
                                     application for airport security-access badges in order to strengthen the process
                                     for reviewing applications and issuing badges at Logan International Airport in
                                     Boston. The Massachusetts Port Authority subsequently amended the badge
                                     application form to incorporate some of these changes, including clarifying the
                                     section where criminal history must be declared and enhancing warnings about
                                     penalties for falsifying information. (December)

                                     Sidebar Labor Agreements at FAA. On January 9, we briefed FAA Administrator
                                     Blakey on our concerns regarding FAA’s management and controls over sidebar
                                     agreements or memoranda of understanding (MOU) that are outside the nation-
                                     al collective-bargaining agreement with air traffic controllers. We found there are
                                     between 1,000 and 1,500 MOU agency-wide. Many can have significant cost
                                     implications, but FAA does not know the exact number or nature of these agree-
                                     ments, there are no established procedures for approving MOU, and their cost
                                     impact on the budget has not been analyzed. Since we briefed Administrator



54   Semiannual Report to Congress
Blakey, FAA has begun identifying MOU that are problematic or costly and cor-
responding with the controllers’ unions to reopen several agreements. FAA also
issued new procedures for MOU, which include limiting approval authority and
requiring the Human Resources and Budget divisions to review proposed MOU
before they are signed by management. (January)

Government-Wide IT Issues. The IT Roundtable of the President’s Council for
Integrity and Efficiency asked IG offices that have assessed network vulnerabili-
ty to share with the rest of the IG community ways to reduce the resistance of
program officials to network scanning conducted by IG offices. We provided
ways to design network scanning, select vendor products, and train employees.
We also shared a five-step process that has proven to be successful in gaining
cooperation from program officials when using automated scanning tools to
assess network vulnerability. (January)

Highway Mega-Projects. Based on our suggestions, FHWA developed a month-
ly reporting system to better monitor the status of major highway projects.
FHWA oversight managers of each major project are now required to provide
monthly data on costs, funding, schedule, and risks, which previously were not
part of FHWA’s quarterly reporting system. The new system will improve
FHWA’s ability to oversee major projects by providing timely information on
the status of all major infrastructure projects. (January)

TEA–21 Reauthorization Proposal. The Inspector General worked closely with
the Deputy Secretary Jackson, Federal Highway Administrator Peters, and other
senior officials to ensure the Department’s TEA–21 reauthorization proposal
addressed key OIG recommendations regarding FHWA stewardship and over-
sight of major highway construction projects. The DOT proposal subsequent-
ly included language to require both management and financial plans for major
projects, call for states to prepare these plans for smaller projects, establish min-
imum cost-estimating standards, strengthen the Department’s suspension and
debarment policies to prevent convicted contractors from continuing to defraud
the Government, and allow states to share in monetary recoveries from Federal
fraud cases. (January)

FAA Accounting. During our ongoing review of the Department’s compensa-
tion payments program to aid the airlines for incremental losses incurred as a
result of the 9–11 terrorist attacks, we found problems with procedures and
internal controls at FAA’s Mike Monroney Aeronautical Center in Oklahoma
City, OK. Two air carriers’ refund checks — for $250,000 and $835,380 —
were not cashed until January 2003. FAA concurred with our suggestions to:
(1) safeguard the Department’s funds from inefficient use; (2) promote accu-




                                                                                        other accomplishments   55
                                     racy and reliability in its accounting records; (3) guarantee compliance with
                                     Federal cash-management laws and regulations; and (4) improve operational
                                     efficiency. (January)

                                     DOT’s New Working-Capital Fund. As a result of our recommendations to improve
                                     management of DOT’s new working-capital fund, DOT is: (1) reviewing its
                                     newly implemented Delphi accounting system and developing procedures for
                                     preparing budgets that will eliminate reporting of inappropriate unobligated
                                     amounts; (2) establishing a team to evaluate internal controls and billing prac-
                                     tices; (3) developing a proposed plan for implementing improvements; and (4)
                                     establishing milestones and completion dates for necessary actions. (March)

                                     Hacking into DOT Computers. We identified over 200 unauthorized telephone-
                                     line (dial-up) computer connections at FAA’s Mike Monroney Aeronautical
                                     Center in Oklahoma City, OK, which hackers could use to gain unauthorized
                                     access to DOT networks. We also identified significant vulnerabilities on the
                                     accounting-system Web site. DOT took immediate actions to eliminate unau-
                                     thorized dial-up connections and Web vulnerabilities. (March)




56   Semiannual Report to Congress
                 c h a r t s &
                   ta b l e s

Summary of Performance
October 1, 2002–March 31, 2003

Reports issued                                                                                          39

Recommendations issued                                                                                 173

Congressional testimonies                                                                                5

Total financial recommendations                                                                $396,847,206

 — that funds be better used                                                                   $173,625,232

 — that questioned costs*                                                                      $223,221,974

Cases referred for prosecution                                                                         504†

Cases accepted for prosecution                                                                         491†

Indictments                                                                                            409†

Fines, restitutions, civil judgments, and recoveries                                             $4,872,987

Convictions                                                                                            336†

Debarments and suspensions                                                                              20

Actions affecting DOT employees                                                                         22


* Includes $4,500,000 in unsupported costs.
† Includes cases from airport security sweeps, where OIG participated with other federal agencies and state
and local authorities to identify employees with illegally obtained airport security badges.




                                                                                                              57
                                     INVESTIGATIONS
                                     Judicial and Administrative Actions
                                     October 1, 2002–March 31, 2003

                                     Indictments                                                                                           409*
                                     Administrative actions
                                     Employee
                                                — terminations                                                                                8
                                                — reassignments                                                                               4
                                                — reprimands                                                                                  8
                                                — resignations and retirements                                                                2
                                     Debarments and suspensions                                                                               3
                                     Federal contract terminated                                                                              1
                                     Licenses revoked or terminated                                                                          43
                                     Convictions                                                                                           336
                                     Years sentenced                                                                                         96
                                     Years' probation                                                                                      235
                                     Years' supervised release                                                                             248
                                     Hours of community service                                                                          4,356
                                     Fines                                                                                          $1,161,251
                                     Restitutions/civil judgments                                                                   $1,292,464
                                     Federal recoveries†                                                                            $2,411,933
                                     State recoveries†                                                                                  $7,339

                                     TOTAL                                                                                       $4,872,987
                                     * Includes indictments from airport security sweeps.
                                     † "Recoveries" include fines, restitution, civil judgments or settlements, and Federal and state recoveries.
                                     Federal recoveries go to the U.S. Treasury; state recoveries are retained by the states.




                                     D
                                               uring the 6-month reporting period, 120 cases were opened and
                                               259 were closed, leaving a pending caseload of 483. Cases involv-
                                               ing 504 institutions and people were referred for prosecution.
                                     Cases involving 491 people and institutions referred during this or prior
                                     reporting periods were accepted for prosecution, and the cases of 22 people
                                     and firms were declined. As of March 31, 2003, 30 cases were pending before
                                     prosecutors.



58   Semiannual Report to Congress
Profile of Pending Investigations
As of March 31, 2003
                                                                                                  Types of Cases
                                                                     Contract
                                                  Number             & Grant         Employee          Aviation         Motor Carrier
                                                  of Cases            Fraud           Integrity         Safety             Safety           HazMat        Other
Operating Administration
Bureau of Transportation Statistics                      1                 0               1                0                  0               0             0

Federal Aviation Administration                       196                 25              42             103                   0              14            12

Federal Highway Administration                        101                 90               5                0                  0               0             6

Federal Railroad Administration                         13                 3               0                1                  0               7             2

Federal Transit Administration                          17                16               0                0                  0               0             1

Maritime Administration                                  7                 3               4                0                  0               0             0

Federal Motor Carrier Safety Administration             87                 0               0                0                 60              15            12

Office of the Secretary                                  9                 3               3                0                  0               0             3

Research and Special Programs Administration            36                 2               1                0                  0              33             0

National Highway Traffic Safety Administration          16                 1               7                0                  0               0             8

TOTAL                                                483                 143             63              104                 60              69            44
Percent of Total                                     100%                30%             13%              22%                12%             14%             9%

Note: This table does not include cases from the Transportation Security Administration or U.S. Coast Guard. The two agencies were transferred to the Department of
Homeland Security in early March 2003.

Application of Investigative Resources by Operating Administration
October 1, 2002–March 31, 2003
                                                                                                                                                          USCG 2%
                                                              MARAD 1%
                                                                                                                                                          NHTSA 3%
                                                                                                                                                          FRA 4%

                                                                                                                                                          RSPA 4%
                                                               FAA 20%




                                                                                                                                                          FTA 10%




                                                             FHWA 15%

                                                                                                                                                          OST 13%




                                                             FMCSA 15%
                                                                                                                                                          TSA 13%

*These figures include direct labor charges applied to investigations.
Note: May not equal 100 percent due to rounding.


                                                                                                             C h a r t s           &   Ta b l e s           59
Application of Investigative Resources by Priority Area
October 1, 2002–March 31, 2003
                                                                                                                                                 Employee integrity 7%




                                                                                                                                                 HazMat safety 9%
                             Contract & grant fraud 31%




                                                                                                                                                 Motor carrier safety 12%




                                                                                                                                                 Other 16%


                          Aviation safety & security 25%



Note: May not equal 100 percent due to rounding.




AUDITS
Completed OIG Reports
October 1, 2003–March 31, 2003
(Estimated Amounts*, Dollars in Thousands)
                                                       Number of              Number of                  Questioned           Unsupported          Funds to Be Put
                                                        Reports            Recommendations                 Costs                 Costs              to Better Use
Type of Review
Internal Audits
— Program/Functional                                        20                         99                  $218,490                  $4,500               $ 52,125
— Chief Financial Officer financial statements                6                        39                          $0                     $0              $121,500
Other OIG Internal Reports                                    3                        21                          $0                     $0                     $0

Total Internal Audits and Reports                           29                      159                  $218,490                  $4,500               $173,625
Grant Audits
— Audits of grantee under Single Audit Act                  10                         14                       $232                      $0                     $0

Total                                                       39                      173                  $218,722                  $4,500               $173,625
*The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
Note: Department of Transportation programs and operations are primarily carried out by the Department's personnel and recipients of Federal grants. Audits by DOT's
Office of Inspector General, as a result, fall into three categories: (1) internal audits of departmental programs and operations; (2) internal reviews of departmental pro-
grams and operations; and (3) audits of grant recipients. The table shows OIG's results in the three categories.




60                      Semiannual Report to Congress
OIG Reports with Recommendations That Questioned Costs
October 1, 2002–March 31, 2003
(Dollars in Thousands)
                                                               Number of            Number of           Questioned             Questioned
                                                                Reports          Recommendations          Costs                  Costs*
Reports
A For which no management decision was made
  by the start of the reporting period                                  6               8                  $7,039                    $0

B Which were issued during the reporting period                         7               9                $223,222                $4,500

Total A+B                                                          13                  17               $230,261                $4,500
C For which a management decision was made
  during the reporting period                                           6               9                $225,663                $4,500
— dollar value of disallowed costs                                      6               9                $220,703                $4,500
— dollar value of costs not disallowed†                                 3               4                  $5,030                    $0

D For which no management decision was made by the
  end of the reporting period                                           7               8                  $4,598                    $0

* Unsupported costs are included in the figures for questioned costs.
† Includes reports where costs were both allowed and disallowed.




OIG Reports with Recommendations That Funds Be Put to Better Use
October 1, 2002–March 31, 2003
(Dollars in Thousands)
                                                                 Number of           Number of        Funds to be Put
                                                                  Reports         Recommendations      to Better Use
Reports
A For which no management decision was made
  by the start of the reporting period                                      3               3             $544,100
B Which were issued during the reporting period                             4               9             $173,625

Total A+B                                                                   7           12               $717,725

C For which a management decision was made
  during the reporting period                                               4               9             $173,625
— dollar value of recommendations agreed
  to by management                                                          4*              9*            $173,625
— dollar value of recommendations
  not agreed to by management                                               0*              0*                    $0
D For which no management decision
  was made by the end of the reporting period                               3               3             $544,100

* Includes reports and recommendations where costs were both allowed and disallowed.




                                                                                                    C h a r t s        &   Ta b l e s       61
OIG Reports Recommending Changes for Safety, Economy, or Efficiency
October 1, 2001–March 31, 2003
                                                         Number of              Number of
                                                          Reports            Recommendations
Reports
A For which no management decision was made
  by the start of the reporting period                       30                        87 *
B Which were issued during the reporting period              32                       155

Total A+B                                                    62                       242

C For which a management decision was made
  during the reporting period                                35†                      168
D For which no management decision was made
  by the end of the reporting period                         28†                       74

* Adjusted from previous Semiannual Report (April 1–September 30, 2002) by a net increase of 6 recommendations.
† Includes reports where management made decisions on some but not all recommendations.




Management Decisions Regarding OIG Recommendations
October 1, 2002–March 31, 2003
(Dollars in Thousands)
                                                       Number of         Number of                Questioned      Unsupported   Funds to Be Put
                                                        Reports       Recommendations               Costs           Costs*       to Better Use
Description
Unresolved as of October 1, 2002                           33                  98 †                   $7,039            $0          $544,100
Audits with findings during current period                 33                 173                  $223,222          $4,500         $173,625
Total to Be Resolved                                      66                 271                 $230,261           $4,500         $717,725
Management Decisions:
— Audits prior period‡                                     14                  40                     $2,673            $0                $0
— Audits current period‡                                   23                 146                  $222,990          $4,500         $173,625
Total Resolved                                            37                 186                 $225,663           $4,500         $173,625
Unresolved:
— Less than 6 mos. old                                     11                  27                      $232             $0                $0
— 6 mos.–1 year                                             4                  11                        $89            $0            $1,600
— 1 year–18 mos.                                            8                  22                        $32            $0          $494,500
— 18 mos.–2 years                                           4                  15                     $3,911            $0                $0
— Over 2 years old                                          4                  10                      $334             $0           $48,000
Total Unresolved as of March 31, 2003†                    31                   85                   $4,598              $0         $544,100

* Unsupported costs are also included in the figures for Questioned Costs.
† Adjusted from previous Semiannual Report (April 1–September 30, 2002) by a net increase of 6 recommendations.
‡ Includes reports and recommendations where costs were both allowed and disallowed.



62                     Semiannual Report to Congress
Office of Inspector General Published Reports
October 1, 2002–March 31, 2003
Operating
Administration/    Report         Date                                                               Focus of Report/
Type of Report     Number        Issued                        Title                                Recommendations

United States Coast Guard
Internal Audits: Program/Functional—2 reports
                  FI–2003–022   02–25–03         Computer Security and Controls at                  Additional safeguards needed
                                                 the Aircraft Repair and Supply Center              to ensure integrity, security,
                                                                                                    and system availability

                  MH–2003–028   03–03–03         Use of Fiscal Year 2002 Funds to                   Funds spent to improve small boat
                                                 Improve the Operational Readiness of               stations, but cost-accounting system
                                                 Small Boat Stations and Command                    unable to isolate search-and-rescue
                                                 Centers (revised 04-14-2003)                       expenditures

Internal Audits: Chief Financial Officer Financial Statement—1 report
                  FI–2003–014   01–22–03         Actuarial Estimates for Retired Pay                Reasonable and reliable
                                                 and Medical Benefits                               methodology used to calculate
                                                                                                    liabilities and actuarial activity
Federal Aviation Administration
Internal Audits: Program/Functional—6 reports
                  AV–2003–002   11–15–02         Support Contracts: Cost Controls                   Put $10,500,000 to better use;
                                                 Over the National Airspace System                  $90,000 questioned;
                                                 Implementation Support Contract                    $4,500,000 unsupported
                                                 Need Significant Strengthening

                  AV–2003–006   12–16–03         FAA Needs to Reset Expectations                    Actions needed to restate
                                                 for Local Area Augmentation System Because         delivery schedule, cost,
                                                 Considerable Work Is Required Before It            procedures, and benefits
                                                 Can Be Deployed for Operational Use

                  AV–2003–009   12–20–02         Integrated Terminal Weather System:                Budget shortfall needs to be
                                                 Important Decisions Must Be Made                   addressed; implementation
                                                 on the Deployment Strategy                         behind schedule

                  AV–2003–011   01–17–03         Workers' Compensation Traumatic                    Better tracking of traumatic
                                                 Injury Claims                                      injury claims needed

                  FI–2003–013   01–21–03         Terminal Service Cost-Accounting Practices         $38,000,000 questioned

                  AV–2003–030   03–20–03         Oversight of Airport Revenue                       Put $40,938,089 to better use

Internal Audits: Chief Financial Officer Financial Statement—1 report
                  QC–2003–017   01–27–03         Financial Statements for Fiscal Year 2002          Unqualified opinion on financial statements

Grant Audits: Audits of Grantee Under Single Audit Act—1 report
                  QC–2003–019   02–10–03         City of Laredo, TX                                 Improve grantee oversight




                                                                                             C h a r t s      &    Ta b l e s            63
Office of Inspector General Published Reports (continued)
Operating
Administration/    Report             Date                                                      Focus of Report/
Type of Report     Number            Issued                        Title                       Recommendations


Federal Highway Administration
Internal Audits: Program/Functional—2 reports
                  IN–2003–003        11–22–02        Springfield Interchange Project           Finance plan needed that has reasonable
                                                                                               cost estimates, adequate funding, and
                                                                                               reliable schedules

                  IN–2003–039        03–31–03        October 2002 Finance Plan for the         Finance plan needs to disclose unresolved
                                                     Central Artery/Tunnel Project             legal issue and schedule risks

Internal Audits: Chief Financial Officer Financial Statement—1 report
                  FI–2003–015        01–24–03        Highway Trust Fund Financial Statements   Unqualified opinion on financial statements;
                                                     for Fiscal Years 2002 and 2001            put $121,500,000 to better use

Grant Audits: Audits of Grantee Under Single Audit Act—4 reports
                  QC–2003–007        12–13–02        Michigan Department of Transportation     Improve grantee oversight

                  QC–2003–035        03–31–03        Innovative Pavement Research Foundation   $13,735 questioned

                  QC–2003–036        03–31–03        State of New York                         Improve grantee oversight

                  QC–2003–037        03–31–03        City of Shoreline, King County, WA        $39,618 questioned

Federal Transit Administration
Grant Audits: Audits of Grantee Under Single Audit Act—5 reports
                  QC–2003–008        12–13–02        Port Authority of Allegheny County, PA    Improve grantee oversight

                  QC–2003–020        02–12–03        Capital District Transportation           $178,621 questioned
                                                     Authority, Albany, NY

                  QC–2003–033        03–31–03        Foothill Transit, Los Angeles, CA         Improve grantee oversight

                  QC–2003–034        03–31–03        City of Chicago, IL                       Improve grantee oversight

                  QC–2003–038        03–31–03        Birmingham Regional Paratransit           Improve grantee oversight
                                                     Consortium, AL

Maritime Administration
Internal Audits: Program/Functional—1 report
                  CR–2003–031        03–27–03        Title XI Loan-Guarantee Program           Improve oversight and tighten
                                                                                               loan-guarantee controls
National Transportation Safety Board
Internal Audits: Program/Functional—1 report
                  FI–2003–004        12–11–02        Financial Management Practices and        Management attention needed
                                                     Internal Controls                         to correct budgetary, payment, receipts, and
                                                                                               internal-control weaknesses




  64                 Semiannual Report to Congress
Operating
Administration/    Report         Date                                                               Focus of Report/
Type of Report     Number        Issued                        Title                                Recommendations


Office of the Secretary of Transportation
Internal Audits: Program/Functional—3 reports
                  CR–2003–001   10–03–02         Midway Airlines Air Carrier                        Put $687,143 to better use
                                                 Compensation Payments

                  FI–2003–010   01–09–03         Shutdown of the Transportation Computer Center     $1,400,000 questioned

                  FI–2003–032   03–28–03         Energy Management and                              Further reductions of energy
                                                 Conservation Program                               consumption possible

Internal Audits: Chief Financial Officer Financial Statement—1 report
                  FI–2003–018   01–27–03         Consolidated Financial Statements                  Unqualified opinion on
                                                 for Fiscal Years 2002 and 2001                     financial statements

Other Internal OIG Reports—1 report
                  PT–2003–012   01–21–03         Top Management Challenges                          Top management challenges
                                                                                                    related to DOT's ongoing missions

Transportation Security Administration
Internal Audits: Program/Functional—5 reports
                  AV–2003–005   12–11–02         Implementation of Veterans'                        High proportion of veterans
                                                 Preference in Screener Hiring                      hired; more consistency
                                                                                                    required in screener hiring

                  AV–2003–027   02–28–03         Security at Aircraft Repair Stations               Improvements needed in
                                                                                                    repair station security

                  FI–2003–025   02–28–03         Security Screener Contracts                        $179,000,000 questioned

                  SC–2003–026   02–28–03         Screener Security Program                          Additional actions needed
                                                                                                    to correct weaknesses

                  SC–2003–029   03–14–03         Federal Air Marshal Program                        Program expanded and strengthened,
                                                                                                    but specific improvements needed

Internal Audits: Chief Financial Officer Financial Statement—1 report
                  QC–2003–016   01–27–03         Financial Statements for Fiscal Year 2002          Unqualified opinion on financial statements

Other Internal OIG Reports—2 reports
                  SC–2003–023   02–27–03         Progress Implementing Sections 106 and 138         Actions needed to fully
                                                 of the Aviation and Transportation Security Act    implement security provisions

                  SC–2003–024   02–28–03         Proposed Aviation Security Technologies            Further research needed on
                                                                                                    aviation security technologies

Saint Lawrence Seaway Development Corporation
Internal Audits: Chief Financial Officer Financial Statement—1 report
                  QC–2003–021   02–20–03         Financial Statements for Fiscal Years              Unqualified opinion on financial statements
                                                 2002 and 2001



                                                                                             C h a r t s     &    Ta b l e s            65
Application of Audit Resources by Operating Administration
October 1, 2002–March 31, 2003                                                                                                           MARAD 2%
                                                           Other 1%
                                                                                                                                         NHTSA 2%

Note: Resources shown for OST include                                                                                                    FRA 6%
time spent performing audits of the DOT
Consolidated Financial Statement (which                                                                                                  FTA 6%
includes all Operating Administrations) and                FAA 24%
Air Transportation Safety and System
Stabilization Act activities, including air
carrier compensation payments and loan                                                                                                   FMCSA 7%
guarantees for the airline industry.
    The wedge ‘Other’ represents resources
expended on the Research and Special
Programs Administration, St. Lawrence                                                                                                    USCG 8%
Seaway Development Corporation, National
Transportation Safety Board, Bureau of                     OST 21%
Transportation Statistics, and Surface
Transportation Board and totaled less than 1
percent each.                                                                                                                            FHWA 11%



                                                                                                                                         TSA 12%




     Office of Inspector General Congressional Testimonies
     October 1, 2002–March 31, 2003
                                       Testimony
     Control No.                          Date                               Subject                             Congressional Body

     CC–2003–027                      11–19–2002          Computer Security Challenges                       Committee on Government Reform;
                                                          Within the Department of Transportation            Subcommittee on Government
                                                                                                             Efficiency, Financial Management,
                                                                                                             and Intergovernmental Relations;
                                                                                                             U.S. House of Representatives

     CC–2003–066                      02–05–2003          Aviation Security Costs,                           Committee on Commerce, Science,
                                                          Transportation Security Administration             and Transportation; Subcommittee on
                                                                                                             Aviation; U.S. Senate

     CC–2003–068                      02–11–2003          The State of the Federal Aviation Administration   Committee on Commerce, Science,
                                                                                                             and Transportation; U.S. Senate

     CC–2003–058                      02–12–2003          Reauthorization of the Federal                     Committee on Transportation
                                                          Aviation Administration                            and Infrastructure; Subcommittee on
                                                                                                             Aviation; U.S. House of Representatives

     CC–2003–080                      03–13–2003          Appropriations Issues for the                      Committee on Appropriations;
                                                          Department of Transportation                       Subcommittee on Transportation,
                                                          FY 2004 Budget                                     Treasury, and Independent Agencies;
                                                                                                             U.S. House of Representatives




   66                     Semiannual Report to Congress
Status of Unresolved Recommendations Over 6 Months Old
Cited in Semiannual Report for Reporting Period —                              Report No.        Date Issued                            Status
April 1–September 30, 2000
Contract Towers: Observations on FAA's Study of Expanding the Program          AV–2000–079          04–12–00          Awaiting additional information from FAA

October 1, 2000–March 31, 2001
Airport Noise Compatibility Program                                            AV–2001–012          12–14–00          Awaiting additional information from FAA
Castle Joint Powers Authority, California                                      QC–2001–022          02–14–01          Working with grantee to resolve issues
Gary Public Transportation Corporation, Indiana                                QC–2001–027          02–16–01          Working with grantee to resolve issues
April 1–September 30, 2001
State of Indiana                                                               QC–2001–052          04–11–01          Working with grantee to resolve issues
Government of U.S. Virgin Islands                                              QC–2001–053          04–17–01          Working with grantee to resolve issues
Compensation Issues Concerning Air Traffic Managers,                           AV–2001–064          06–15–01          Working with FAA to resolve open issues
Supervisors, and Specialists
Despite Significant Management Focus, Further Actions Are                      AV–2001–066          06–26–01          Working with FAA to resolve open issues
Needed to Reduce Runway Incursions

October 1, 2001–March 31, 2002
Milford Transit District, Connecticut                                          QC–2002–021          10–30–01          Working with grantee to resolve open issues
Downtown Waycross Development Authority, Georgia                               QC–2002–027          10–31–01          Working with grantee to resolve open issues
State of Minnesota                                                             QC–2002–030          10–31–01          Working with grantee to resolve open issues
State of Indiana                                                               QC–2002–032          10–31–01          Working with grantee to resolve open issues
Government of U.S. Virgin Islands                                              QC–2002–051          11–06–01          Working with grantee to resolve open issues
Operational and Supportability Implementation System                           AV–2002–064          12–07–01          Working with FAA to resolve open issues
Review of FAA's Oversight of Aircraft Maintenance                              AV–2002–066          12–12–01          Working with FAA to resolve open issues
FAA's Acquisition of Aviation Weather Systems                                  AV–2002–084          02–28–02          Working with FAA to resolve open issues
April 1–September 30, 2002
Information Technology Omnibus Procurement Program                             FI–2002–089          04–15–02          Working with DOT to resolve open issues
Actions Taken to Recover Excess Reserves from Central Artery/                  IN–2002–095          07–22–02          Working with FHWA and Central Artery
Tunnel Project's Owner-Controlled Insurance Program                                                                   Project officials to resolve open issues
Metropolitan Council, St. Paul, MN                                             QC–2002–107          08–22–02          Working with grantee to resolve open issues
Southeastern Pennsylvania Transportation                                       QC–2002–111          09–16–02          Working with grantee to resolve open issues




Note: A total of 95 recommendations were transferred to the Department of Homeland Security for resolution — 7 for FAA, 11 for the Coast Guard, and 77 for TSA.

Required Statements:
   The Inspector General Act requires explanations of reasons for significant revisions to management decisions made during the reporting period. OIG follows
up on audits reported in earlier Semiannual Reports. During this reporting period, there were no significant revisions of Departmental management decisions
reported to OIG.
    The Inspector General Act requires this report to describe any significant management decisions with which the OIG disagrees. At the close of this reporting
period, there were no significant management decisions with which OIG disagreed.




                                                                                                         C h a r t s         &    Ta b l e s              67
                                                          m i s s i o n,
                                                     o r g a n i z a t i o n,
                                                       & contacts

                                                T
                                                         he Office of Inspector General for the Department of Transportation
                                                         was created by Congress through the Inspector General Act of 1978
                                                         (Public Law 95–452). The act sets several goals for OIG:

                                                ■   To conduct or supervise objective audits and investigations of DOT's pro-
                                                    grams and operations;

                                                ■   To promote economy, effectiveness, and efficiency within DOT;

                                                ■   To prevent and detect fraud, waste, and abuse in the Department's pro-
                                                    grams;

                                                ■   To review existing and proposed laws or regulations affecting the
                                                    Department and make recommendations about them;

                                                ■   To keep the Secretary of Transportation and Congress fully informed about
                                                    problems in departmental programs and operations.

                                                                                              OIG is divided into two major
  OIG FY 2003 Budgetary Resources                                                          units and five support units. The
  Total: $65,986,403                                                                       major units are the Office of the
                                                                                           Principal Assistant Inspector General
                                                                    Working Capital Fund
                                                                                           for Auditing and Evaluation and the
                   Travel $2,500,000                                $2,000,000             Office of Assistant Inspector General
                                                                                           for Investigations. Each has head-
                   Other $3,141,403                                                        quarters staff and field staff. The sup-
                                                                                           port units are the Office of Legal,
             Rent to GSA $3,780,000                                                        Legislative, and External Affairs; the
                                                                                           Office of Technical Resource
     Advisory and Assistance Contracts
                                                                                           Management; the Office of Human
                          $5,130,000                                                       Resources; the Office of Financial,
                                                                                           Administrative, and Information
 Personnel Compensation and Benefits
                                                                                           Management; and the Office of
                      $49,435,000
                                                                                           Quality Assurance Reviews/Internal
                                                                                           Affairs.




68              Semiannual Report to Congress
                                                                                                                               Inspector General




                                                                                                                           Deputy Inspector General




                                                             Assistant IG for                                               Principal Assistant IG for                    Legal, Legislative, & External Affairs
                                                              Investigations                                                 Auditing & Evaluation
                                                                                                                                                                      Quality Assurance Reviews & Internal Affairs
                                                                                                                                                                           Technical Resource Management
                                                                                                                                                                                   Human Resources
                                                             Deputy AIG for
                                                             Investigations                                                                                       Financial, Administrative, & Information Management




                                                                                                                                                                                          Deputy AIG for
                                                                                                     Assistant IG for             Assistant IG for          Assistant IG for
                                                                          Assistant IG for                                                                                             Hazardous Materials,
                                                                                                 Financial & Information        Surface & Maritime       Competition & Economic
                                                                          Aviation Audits                                                                                               Security, & Special
                                                                                                    Technology Audits                Programs                   Analysis
                                                                                                                                                                                            Programs



                                                                             Deputy AIG for
                                                                        Information Technology
                                                                          & Computer Security




M i s s i o n , O r g a n i z a t i o n , & C o n ta c t s
       69
                                                                    contacts
                                               Inspector General
                                               Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1959

                                               Deputy Inspector General
                                               Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6767

                                               Principal Assistant Inspector General for Auditing and Evaluation
                                               Alexis M. Stefani . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1992

                                               Assistant Inspector General for Investigations
                                               Charles H. Lee, Jr. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1967

                                               Deputy Assistant Inspector General for Investigations
                                               Cecelia Rosser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–8081

                                               Assistant Inspector General for Legal, Legislative, and External Affairs
                                               Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–8751

                                               Public Affairs Officer
                                               David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6312

                                               Assistant Inspector General for Aviation Audits
                                               David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0500

                                               Assistant Inspector General for Financial and Information Technology Audits
                                               Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0687

                                               Deputy Assistant Inspector General for Information Technology and Computer Security
                                               Rebecca Leng . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1488

                                               Assistant Inspector General for Surface and Maritime Programs
                                               Debra S. Ritt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–5630

                                               Assistant Inspector General for Competition and Economic Analysis
                                               Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–9970

                                               Deputy Assistant Inspector General for Hazardous Material, Security, and Special Programs
                                               Robin Hunt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 744–0420

                                               Director for Audit Planning, Training, and Technical Support
                                               Sue Murrin . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1453

                                               Director of Technical Resource Management
                                               James Heminger . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1498

                                               Director of Human Resources
Hotline to report fraud, waste, and abuse:
                                               Vivian Jarcho . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 493–0129
     phone:     1–800–424–9071
                                               Director of Financial, Administrative, and Information Management
        fax:    202–366–7749
                                               Jackie Weber . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1495
     e-mail:    hotline@oig.dot.gov
OIG website:    http://www.oig.dot.gov         Director of Quality Assurance Reviews and Internal Affairs
                                               Jerome Persh . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1504

70             Semiannual Report to Congress
                   acronyms
AIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Assistant Inspector General
AIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Airport Improvement Program
AIR–21 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Aviation Investment and Reform Act for the 21st Century
ATOP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technologies and Oceanic Procedures
BTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Transportation Statistics
CDL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commercial Driver License
DCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Defense Criminal Investigative Service
DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Transportation
DUI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .driving under the influence
EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Environmental Protection Agency
FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Aviation Administration
FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Bureau of Investigation
FHWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Highway Administration
FMCSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Motor Carrier Safety Administration
FRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Railroad Administration
FTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Transit Administration
GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration
ICEMAN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Integrated Computing Environment Mainframe and Network
INS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Immigration and Naturalization Service
IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Internal Revenue Service
IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .information technology
MARAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Maritime Administration
MOU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .memorandum of understanding
NAFTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .North American Free Trade Agreement
NHTSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Highway Traffic Safety Administration
NTSB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Transportation Safety Board
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget
OST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary of Transportation
PFC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .passenger facility charge
RSPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Research and Special Programs Administration
SafeStat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Status Measurement System
TEA–21 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Equity Act for the 21st Century
TREAD Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Recall Enhancement, Accountability, and Documentation Act of 2000
TSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Security Administration
USCG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .United States Coast Guard


                                                                                                                                                                                                         71
U.S. Department of Transportation

    Office of Inspector General
     400 Seventh Street, S.W.
     Washington, D.C. 20590
 OIG website: http://www.oig.dot.gov
